<html>
<title> - AN EXAMINATION OF THE FEDERAL EMERGENCY MANAGEMENT AGENCY'S LIMITED ROLE IN LOCAL LAND-USE DEVELOPMENT DECISIONS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






  AN EXAMINATION OF THE FEDERAL EMERGENCY MANAGEMENT AGENCY'S LIMITED 
              ROLE IN LOCAL LAND-USE DEVELOPMENT DECISIONS

=======================================================================

                                (114-53)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 21, 2016

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

21-645 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                             Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        CORRINE BROWN, Florida
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
DANIEL WEBSTER, Florida              DONNA F. EDWARDS, Maryland
JEFF DENHAM, California              JOHN GARAMENDI, California
REID J. RIBBLE, Wisconsin            ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              JANICE HAHN, California
MARK MEADOWS, North Carolina         RICHARD M. NOLAN, Minnesota
SCOTT PERRY, Pennsylvania            ANN KIRKPATRICK, Arizona
RODNEY DAVIS, Illinois               DINA TITUS, Nevada
MARK SANFORD, South Carolina         SEAN PATRICK MALONEY, New York
ROB WOODALL, Georgia                 ELIZABETH H. ESTY, Connecticut
TODD ROKITA, Indiana                 LOIS FRANKEL, Florida
JOHN KATKO, New York                 CHERI BUSTOS, Illinois
BRIAN BABIN, Texas                   JARED HUFFMAN, California
CRESENT HARDY, Nevada                JULIA BROWNLEY, California
RYAN A. COSTELLO, Pennsylvania
GARRET GRAVES, Louisiana
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
CARLOS CURBELO, Florida
DAVID ROUZER, North Carolina
LEE M. ZELDIN, New York
MIKE BOST, Illinois




























                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Michael Grimm, Assistant Administrator for Mitigation, Federal 
  Emergency Management Agency....................................     5
Christine Shirley, National Flood Insurance Program Coordinator, 
  Department of Land Conservation and Development, State of 
  Oregon.........................................................     5
Hon. Denny Doyle, Mayor, City of Beaverton, Oregon...............     5
Hon. Heather Carruthers, Commissioner, Monroe County, Florida, on 
  behalf of the National Association of Counties.................     5
Jon Chandler, Chief Executive Officer, Oregon Home Builders 
  Association, on behalf of the National Association of Home 
  Builders.......................................................     5

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Michael Grimm....................................................    39
Christine Shirley................................................    55
Hon. Denny Doyle.................................................    63
Hon. Heather Carruthers..........................................    66
Jon Chandler.....................................................    73

                       SUBMISSIONS FOR THE RECORD

Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, request to submit three letters expressing 
  concern over the Federal Emergency Management Agency's 
  implementation of reasonable and prudent alternatives arising 
  from the National Marine Fisheries Service's biological 
  opinion:

    Letter of June 17, 2016, from Hon. Kate Brown, Governor of 
      the State of Oregon, to W. Craig Fugate, Administrator, 
      Federal Emergency Management Agency........................    85
    Letter of June 28, 2016, from Hon. Peter A. DeFazio, a 
      Representative in Congress from the State of Oregon, to 
      Will Stelle, Administrator, West Coast Region, National 
      Marine Fisheries Service...................................    87
    Letter of June 28, 2016, from Hon. Peter A. DeFazio et al., 
      to W. Craig Fugate, Administrator, Federal Emergency 
      Management Agency..........................................    91
Michael Grimm, Assistant Administrator for Mitigation, Federal 
  Emergency Management Agency, responses to questions for the 
  record from the following Representatives:

    Hon. Lou Barletta of Pennsylvania............................    45
    Hon. Peter A. DeFazio of Oregon..............................    48
    Hon. Lois Frankel of Florida.................................    52

                        ADDITIONS TO THE RECORD

Letter of September 29, 2016, from Hon. Kate Brown, Governor of 
  the State of Oregon, to Hon. Bill Shuster, Chairman, and Hon. 
  Peter A. DeFazio, Ranking Member, Committee on Transportation 
  and Infrastructure.............................................    93
Letter of September 21, 2016, from Chad Berginnis, Executive 
  Director, Association of State Floodplain Managers, Inc., to 
  Hon. Bill Shuster, Chairman, and Hon. Peter A. DeFazio, Ranking 
  Member, Committee on Transportation and Infrastructure.........    95
  
  

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  

 
  AN EXAMINATION OF THE FEDERAL EMERGENCY MANAGEMENT AGENCY'S LIMITED 
              ROLE IN LOCAL LAND-USE DEVELOPMENT DECISIONS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 21, 2016

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m. in 
room 2167, Rayburn House Office Building, Hon. Bill Shuster 
(Chairman of the committee) presiding.
    Mr. Shuster. The committee will come to order. Welcome to 
today's hearing.
    I want to thank Ranking Member DeFazio for bringing this 
important issue to our attention. And today's hearing will 
focus on two important issues, particularly. The first is the 
extent of FEMA's authority to implement the National Flood 
Insurance Program, and the second is the national implications 
of FEMA's implementation of the National Flood Insurance 
Program.
    The committee has worked this Congress to understand what 
is driving the rise in disaster costs and losses, including 
particular policies that may not make much sense or may be 
rewarding bad behavior.
    As we have seen recently with flooding in Louisiana and 
right in my home district in Connellsville and Bullskin 
Township, the National Flood Insurance Program is an important 
part of preparing communities for flood risks they face. We 
know that smart mitigation practices save the taxpayer at least 
$4 for every $1 invested.
    It is important that local land-use and development 
decisions ultimately reside with local officials who understand 
the risks and challenges of a particular area. Additionally, it 
is critical that Federal agencies understand the limitations of 
their authorities and work within their authorities.
    I look forward to hearing from our witnesses today.
    And now I yield to the ranking member for an opening 
statement.
    Mr. DeFazio. Thank you, Mr. Chairman. Thanks for holding 
this oversight hearing of the Federal Emergency Management 
Agency. And thanks to the witnesses who are here today.
    As you stated earlier, the National Flood Insurance Program 
is critical in many areas. It's pretty simple. It says that, 
you know, the FEMA should develop minimum flood plain 
standards, and then it's up to local communities to enact laws 
that meet or exceed those in order to participate in the 
National Flood Insurance Program.
    Now, in the particular case of Oregon, which, under this, 
is now being sort of nominated to be the poster child and the 
template for all the United States of America by certain 
agencies and groups, we have strict land-use planning. So the 
question becomes how are you going to overlay these new rules 
on top of our already strict land-use planning, which is 
designed to have compact urban growth?
    But it also says you have to accommodate future needs. And 
therefore, you have to have enough buildable property. In all 
probability, we would have to blow up our law, do away with the 
idea of compact growth, and say, no, we are going to have 
sprawling growth like so many other places because the downtown 
core of many of our cities, which was intended to be 
redeveloped with higher densities, including the riverfront 
through Portland, where Oregon Health Sciences is building 
major new projects. Parts of downtown Eugene, an area called 
Glenwood between Eugene and Springfield, these areas would be 
pretty well precluded from redevelopment. Therefore, it appears 
that we would then begin to model ourselves after the rest of 
the country.
    And somehow this is going to help the endangered species, 
according to the National Marine Fisheries Service. I give a--
you know, we have a map that shows how many communities in 
Oregon would be affected, which they are going to put up. And 
you can see it is over 221 communities in Oregon would be 
affected--232.
    It would--in the case of Coos Bay--if I could have the Coos 
Bay map--Coos Bay is a community, it has been struggling with a 
depressed economy for many years. There are some glimmers of 
hope and activity there. But this is what has been designated 
and which FEMA would restrict or prohibit development or 
redevelopment in that entire area.
    That happens to be all of the downtown core--you can leave 
it up for a second, whoever took it down--that--that area, it 
does include the local newspaper building, which is critical 
salmon habitat. It does include Highway 101, critical salmon 
habitat. It does include some buildings that are well over 100 
years old and need substantial renovation or actually would be 
replaced. But no, this area would be denied flood insurance 
unless they dramatically restrict or prohibit any redevelopment 
in that area, at least in an interim period, while FEMA 
develops rules to accommodate the so-called RPA.
    So, we are going to have a number of witnesses here today 
to talk about this. You know, when I first came to Congress, 
there was--one of the early black helicopter conspiracy 
theories was about the Rockefeller Commission. And I said, 
``Well, what is that?''
    And they said, ``I have a plan to institute national land 
use--the Federal Government is going to usurp the police powers 
of the States under the Constitution, and is going to mandate 
national land-use planning.'' And I would always tell those 
people they were nuts. Well, maybe they weren't. That is why we 
are here today.
    Thank you, Mr. Chairman.
    Mr. Shuster. Thank you, Mr. DeFazio. And with that, I 
recognize the subcommittee chair, Mr. Barletta, for a 
statement.
    Mr. Barletta. Thank you, Mr. Chairman.
    Since the beginning of the 114th Congress, we have been 
exploring the rising costs of disasters in terms of both the 
loss of property and human life. At our first hearing in the 
114th Congress, I stated that my top emergency management 
priority was pursuing disaster legislation that will save 
lives, lower costs, and launch a comprehensive review of 
Federal disaster policies and the rising costs of disasters.
    Early last year, Ranking Member Carson and I introduced the 
FEMA Disaster Assistance Reform Act to call for the first 
comprehensive assessment of disaster costs and losses in over 
20 years.
    One of the most important pieces of our country's disaster 
assistance policy is linked to the National Flood Insurance 
Program, or the NFIP. So, today's hearing focusing on FEMA's 
authorities to implement the NFIP, and the extent that those 
authorities can impact local land-use and development 
decisions, is a critical element of that discussion.
    I thank Ranking Member DeFazio for bringing this issue to 
the forefront so that we could bring the right people together 
to help us understand how some of the challenges being faced in 
Oregon will impact the entire Nation. I look forward to hearing 
from FEMA, the State and local officials, and our 
representatives from the National Association of Home Builders, 
about their current challenges and concerns regarding these 
issues. Thank you.
    Mr. Shuster. Thank you. And now I would like to recognize 
Mr. Curbelo to introduce one of his constituents, who is a 
witness today.
    Mr. Curbelo. Chairman Shuster, Ranking Member DeFazio, 
thank you for yielding me time and, more importantly, thank you 
for holding a hearing on such an important topic as FEMA's role 
in the National Flood Insurance Program.
    My south Florida district is almost completely surrounded 
by water, so this hearing is of particular importance to my 
constituents, which is why I am so proud to have with us today 
Mayor Heather Carruthers from Monroe County, Florida, on behalf 
of the National Association of Counties.
    As the mayor of all of the Florida Keys, Ms. Carruthers 
brings to this hearing a unique insight on how flood insurance 
rates affect those who work and live in our coastal 
communities, not just those who come for vacation.
    As a member of the Key West Chamber of Commerce, and as an 
instrumental founder of the Fair Insurance Rates in Monroe 
County, or FIRM, Mayor Carruthers has been an invaluable source 
of information to me and my staff, as we work together on 
addressing flood insurance rates and disaster mitigation. She 
is a steadfast leader in our community for working on behalf of 
her constituents and those residents who call the Keys home.
    And fun fact: She has been a featured soloist with the Key 
West Pops and Island Opera Theatre. Also, recently, a charades 
partner with me--a very successful partnership, by the way, at 
a charity event--and, more importantly, Mayor Carruthers and 
her family recently welcomed a little boy to the world, Colin. 
So congratulations, and thank you so much for joining us today.
    Ms. Carruthers. Thank you very much, Representative. It is 
a pleasure working with you.
    Mr. Shuster. Thank you, and welcome. He said a soloist. 
Does that mean an instrument or a singer?
    Ms. Carruthers. Mezzo soprano.
    Mr. Shuster. OK. The high voice. Is that the low voice? I 
don't know anything about music.
    [Laughter.]
    Mr. Shuster. And with that, I will recognize Mr. Carson, 
the ranking member of the subcommittee, for a statement.
    Mr. Carson. Thank you, Chairman Shuster, Ranking Member 
DeFazio, Chairman Barletta.
    You know, today's topic explores how the Endangered Species 
Act affects the Federal Emergency Management Agency's work in 
implementing the National Flood Insurance Act. Both of these 
laws are very essential, yet the interplay between these two 
laws raised several questions that we need to examine.
    Congress directed FEMA to carry out the National Flood 
Insurance Program. But this morning we will have a conversation 
about the extent the National Marine Fisheries Service should 
be allowed to direct FEMA, if at all, on how FEMA carries out 
the NFIP. FEMA currently does not authorize, fund, or license 
private development on private lands. Yet the Fisheries Service 
is directing FEMA to either take or prohibit certain actions. 
That will result in FEMA being responsible for determining 
whether privately funded activities on private lands may occur.
    So, the committee must examine whether FEMA should have 
this land-use authority, or regulatory authority. Now, the 
Fisheries Service is proposing that FEMA exercise its authority 
to prohibit most, if not all, private development in Oregon 
flood plains. If FEMA exercises its authority, we need to know 
whether it could be used nationwide.
    On the surface, these issues seem to only apply in Oregon. 
But what I want to learn more about is whether these 
authorities and directives could be expanded elsewhere. We have 
several endangered species in Indiana that deserve protection, 
but we also have flood plains, and property owners who have 
resided in these flood plains for a long time, and who need 
flood insurance.
    I look forward to learning more about the laws and 
processes involved here, as well as other issues, concerns, and 
suggestions for addressing these issues.
    Thank you, Mr. Chairman. I yield back.
    Mr. Shuster. Thank you, Mr. Carson. And, with that, we will 
start our panel.
    First, welcome to all of you for being here. We really 
appreciate you taking the time to testify with us today and 
help educate us.
    Our first witness is Mr. Michael Grimm, the Assistant 
Administrator for Mitigation at FEMA. Mr. Grimm, you are 
recognized for your statement.

    TESTIMONY OF MICHAEL GRIMM, ASSISTANT ADMINISTRATOR FOR 
  MITIGATION, FEDERAL EMERGENCY MANAGEMENT AGENCY; CHRISTINE 
    SHIRLEY, NATIONAL FLOOD INSURANCE PROGRAM COORDINATOR, 
   DEPARTMENT OF LAND CONSERVATION AND DEVELOPMENT, STATE OF 
  OREGON; HON. DENNY DOYLE, MAYOR, CITY OF BEAVERTON, OREGON; 
HON. HEATHER CARRUTHERS, COMMISSIONER, MONROE COUNTY, FLORIDA, 
  ON BEHALF OF THE NATIONAL ASSOCIATION OF COUNTIES; AND JON 
    CHANDLER, CHIEF EXECUTIVE OFFICER, OREGON HOME BUILDERS 
  ASSOCIATION, ON BEHALF OF THE NATIONAL ASSOCIATION OF HOME 
                            BUILDERS

    Mr. Grimm. Thank you. Good morning, Chairman Shuster and 
Ranking Member DeFazio and members of the committee. My name is 
Michael Grimm, and I am the Assistant Administrator for 
Mitigation for the Federal Emergency Management Agency. Thank 
you for the opportunity to testify about FEMA's efforts to 
strengthen our National Flood Insurance Program compliance with 
the Endangered Species Act in Oregon, as well as the associated 
implications, nationwide.
    In response to lawsuits brought under ESA, FEMA has been 
required, either by the courts or through settlement agreements 
with plaintiffs, to undertake consultations under the ESA on 
implementation of the NFIP in particular communities and 
regions. In consultations undertaken in Monroe County, Florida, 
the Puget Sound region of Washington, and in Oregon, the 
Services--in some cases the National Marine Fisheries Service, 
or NMFS, and in other cases the U.S. Fish and Wildlife 
Service--have found that the implementation of the NFIP in 
those areas was likely to jeopardize the continued existence of 
threatened and endangered species, and adversely modify 
designated critical habitat. When a jeopardy opinion is issued, 
the Services must also provide reasonable and prudent 
alternatives, if any, to a proposed action.
    The RPA is a recommended set of program changes that will 
ensure a proposed action is implemented in a manner that will 
not jeopardize species, as well as the adverse modification of 
critical habitats.
    Up until the consultation conducted with NMFS in Oregon, 
all of the RPAs from consultations had been able to be 
implemented, consistent with the NFIP and what we at FEMA call 
performance-based standards. FEMA uses performance-based 
standards to implement the NFIP throughout our 22,000 
participating communities. FEMA recognizes that there are any 
number of ways in which a committee can meet the minimum flood 
plain management criteria established by FEMA for a community 
to participate in the NFIP.
    Performance-based standards provide flexibility for 
communities to meet the requirements of the ESA in a way that 
makes sense to them. In like manner, the RPAs FEMA implemented 
prior to the Oregon consultation operated within this 
framework, allowing FEMA to work collaboratively with 
communities to ensure compliance with the requirements of the 
Endangered Species Act in a way that made sense to each 
individual community.
    For example, FEMA's implementation of the RPA resulting 
from the Puget Sound Washington area consultation with NMFS 
provided communities flexibility to implement an approach to 
preserve ESA-listed species and their designated critical 
habitat in a manner that is consistent with local decisions and 
land use. While some communities chose to adopt a model 
ordinance to ensure compliance with the requirements of ESA, 
others have the flexibility to demonstrate through existing 
codes and standards that they are already meeting these 
important standards.
    Still others chose a third option, demonstrating compliance 
on a permit-by-permit basis. The RPA resulting from the Oregon 
consultation with NMFS, however, is different. In Oregon, NMFS 
issued an RPA that differs from the Puget Sound performance-
based standard approach, following a prescriptive approach, 
instead.
    If implemented as written, the RPA in Oregon will result in 
expansion of areas mapped within the special flood hazard area 
to include areas likely to flood based on data reflecting the 
anticipated impacts of climate change, and will require 
enhanced regulatory flood plain management criteria going 
beyond the minimum standards currently required as a condition 
of participation in the National Flood Insurance Program.
    Changing FEMA's regulations to accommodate these 
requirements of the RPA in Oregon will not only impact how FEMA 
administers the NFIP in Oregon, but across the Nation in all 
22,000 communities that participate in the NFIP.
    Environmental stewardship is an important responsibility, 
and FEMA is committed to doing everything within our authority 
to ensure that the NFIP is compliant with the ESA. At FEMA we 
believe in the whole-community approach in accomplishing our 
mission. As such, we will continue a close working relationship 
with NMFS and the U.S. Fish and Wildlife Service, as well as 
working with our State, local, and tribal partners to make sure 
we accomplish our goals.
    Thank you for the opportunity to testify, and I look 
forward to answering any questions the committee may have.
    Mr. Shuster. Thank you, Mr. Grimm. Now our next witness 
today is Ms. Chris Shirley, the National Flood Insurance 
Program coordinator for the Oregon Department of Land 
Conservation and Development.
    Thank you for being here today.
    Ms. Shirley. Good morning, Chairman Shuster, Ranking Member 
DeFazio, and members of the committee. I am pleased to be here 
today to talk about this--to discuss Oregon's perspective on 
the reasonable and prudent alternatives. My name is Christine 
Shirley, and I work with communities directly on implementation 
of the National Flood Insurance Program in Oregon, as the State 
NFIP coordinator.
    I am going to present an abbreviated version of some 
written testimony that I have submitted.
    So, as Mr. DeFazio mentioned, Oregon has been a pioneer in 
implementing a statewide land-use program. This was implemented 
40 years ago. And it preserves local control and responsibility 
for land-use decisions while establishing an overarching set of 
goals known as our 19 land-use planning goals, which, at its 
core, direct new development into towns and cities, protect 
rural areas for farm and forest use, and evaluate environmental 
impacts at the planning level, rather than at the permit-by-
permit level that is the case in some States, many States.
    So, now Oregon is at the forefront of a Federal directive 
through these reasonable and prudent alternatives to 
incorporate an additional layer of land-use management in the 
special flood hazard areas.
    So I want to emphasize that the State of Oregon supports 
the principle of sound flood plain management, because we 
believe it protects people, property, habitat function, and 
economic vitality. And, as a result, the State has strenuously 
endeavored to be a good partner with our Federal counterparts 
at FEMA and the National Marine Fisheries Service during the 
multiyear consultation that resulted in the reasonable and 
prudent alternative, and will continue to participate 
vigorously in the years ahead.
    And since the RPA was released in April, we have learned a 
few things, recognized a few challenges. And primary among the 
lessons is the importance of early involvement of the States 
and local governments in the crafting of any future reasonable 
and prudent alternatives.
    The State was only allowed limited interaction with the 
Federal agencies during the consultation period, and we are now 
faced with a really difficult task of having to fit a 
consultation that didn't really involve us and doesn't really 
fit with the Oregon land-use planning system; we have to fit 
that RPA into our existing land-use program. It would have been 
easier if we had had the opportunity to do that fitting earlier 
on.
    In the same vein, it is important now that FEMA involve 
local governments in the development of implementation 
strategies for the RPA, and that FEMA understand local 
government timelines and resources in setting their 
implementation targets for the RPA.
    The State has been told by FEMA, for example, that they 
intend to develop guidance to implement interim measures set 
forth in the RPA by April of 2017, which is only 9 months away, 
and then have local governments adopt changes into their 
permitting programs to reflect that guidance. And that schedule 
of less than 2 years is not possible to be implemented for 232 
communities in Oregon.
    And likewise, the schedule for adopting revised flood 
insurance rate maps that are called for in the RPA over the 
next decade, it must pay attention to State and local processes 
and budgets and resources. And realistically, the State can't 
manage an aggressive map adoption process as called for in the 
RPA. And just by way of example, the FEMA map modernization 
program took over 10 years to implement in a much smaller 
number of communities.
    To their credit, both FEMA and NMFS have emphasized 
outreach after the RPA was released, and scheduled immediately 
with us some webinars that local government and the State were 
involved in. And then we hosted 10 regional meetings throughout 
the State with FEMA and NMFS, where we talked about the RPA and 
heard from local governments what their concerns were.
    And we learned many important things, such as the need to 
get credit and leverage Oregon's existing land-use planning 
program, to contextualize the RPA within the watershed 
management program, and not just focus directly on flood 
plains, develop a mitigation banking program, and to limit 
uncertainty around changing rules, maps, and timelines that can 
dampen development investment.
    The State is concerned that the recommended changes to the 
flood plain mapping protocols as set forth in element 3 of the 
RPA would dramatically increase the footprint of the special 
flood hazard areas and regulation therein called for in the 
RPA, and----
    Mr. Shuster. Ms. Shirley, if I could get you to wrap up----
    Ms. Shirley. Yes. And those could have a significant 
negative economic impact.
    So, in conclusion, the changes brought about by this 
consultation must not be overlaid on top of our existing 
system, but be woven into it, and that is going to take some 
time and resources and dedicated staff at the Federal level.
    Thank you very much, and I would be happy to answer any 
questions.
    Mr. Shuster. Thank you, Ms. Shirley. And with that, our 
next witness is the Honorable Denny Doyle, the mayor of the 
city of Beaverton, Oregon.
    Thank you for being here today and proceed, Mr. Doyle.
    Mr. Doyle. Thank you. Good morning, Chairman Shuster and 
Ranking Member DeFazio. I am Denny Doyle, mayor of the city of 
Beaverton. I am also the incoming president of the Oregon 
League of Cities, as well as a board member of the National 
League of Cities. Beaverton is located just 2 short hours north 
of the majestic tall firs in Congressman DeFazio's Lane County. 
Thank you for the opportunity to appear before you today to 
discuss the FEMA role in implementing the National Flood 
Insurance Program in Oregon and throughout the United States.
    As we all know, in 2009 FEMA was sued by environmental 
groups in Oregon for failing to ensure that the implementation 
of the NFIP complies with the Endangered Species Act. In 
response to the ruling, FEMA consulted with the National Marine 
Fisheries Service, resulting in the reasonable and prudent 
alternatives that aims to minimize impacts to ESA-listed 
species.
    The final draft of the RPA calls for drastic expansion of 
an area to be protected beyond FEMA's current jurisdiction 
under the NFIP. If the new protected area is imposed on 
communities, it will have an unprecedented negative impact on 
economic growth, job creation, and new development as well as 
redevelopment, including affordable housing throughout Oregon.
    These lawsuits are occurring in a piecemeal fashion around 
the country. I encourage Members of Congress to be aware that 
if the impacts you hear about today have not yet affected your 
congressional district, they almost surely will in the future. 
I have had the opportunity to meet with representatives from 
both FEMA and NMFS over the past several years in both 
Washington, DC, and Oregon to discuss this situation, and I 
truly remain dismayed at the end results of ESA consultation.
    During development of the RPA, FEMA repeatedly stated their 
concerns with the ``major legal and practical issues concerning 
the RPA,'' and that the ``RPA provides little flexibility in 
how to achieve `no adverse effect.' '' Therefore, FEMA 
concluded that they were unsure how the RPA could be made 
``fully implementable within FEMA's legal authorities.'' Yet 
here we are, with an RPA that FEMA and our local governments 
must implement.
    We all agree that the protection of threatened and 
endangered species is a high priority. However, Beaverton is an 
urban community, one with very little undeveloped land left. In 
or next door to our community are major corporations such as 
Nike's world headquarters, Intel, Columbia Sportswear, to name 
just a few. Given the preponderance of many small streams that 
may contain threatened or endangered species, such stringent 
control of development in an arbitrarily enlarged flood area as 
proposed by the RPA could deter development for much of our 
community.
    Without development or redevelopment by our business 
community, we cannot create new jobs or continue to improve our 
little part of the world. For example, a restaurant in 
Beaverton with a long history of shallow-flood damage--i.e., 
water in a parking lot--has recently been demolished and 
reconstructed. This pre-flood insurance rate map building has 
been rebuilt with a finished floor 2 feet higher than the base 
flood elevation. In other words, they lifted the ground 10 
feet. This is smart, flood-resistant development. However, such 
a beneficial project could effectively be precluded in some way 
by the new RPA.
    In another example, a previously developed area located 
within the RPA-expanded flood zone could not be redeveloped 
into affordable housing because of the additional costs. 
Significant employers and exporters will also likely be 
adversely impacted. In general, any development plans within 
the affected areas would require costly and time-consuming 
consultations with NMFS and FEMA, if they were allowed at all, 
and if they were affordable at all.
    Finally, on a personal note, I am working hard to create an 
arts and culture center in downtown Beaverton, adjacent to 
Beaverton Creek. Twenty-plus years. Even though at this time 
ESA-listed species do not exist in the creek, the RPA will 
likely force us to implement significant RPA measures when 
developing and constructing the arts center. This is going to 
be built at no cost to the local taxpayers; it is a $45 million 
project. All of this comes at a cost, a significant one when 
just raising the funding to develop the arts center itself is a 
challenge on its own terms.
    It should also be mentioned that we remain frustrated about 
the lack of opportunity to provide comments on the RPA--and 
thank you for this opportunity. The Congress should know that 
the iterations of the RPA for Oregon were developed in an 
apparent vacuum, one that does not respect nor serve the local 
communities that must ultimately comply with its mandates.
    Simply put, the RPA developed by NMFS is unworkable in 
Oregon and for FEMA. It demands action that is unreasonable and 
potentially unenforceable by FEMA, all at little identifiable 
value to the species they aim to protect.
    Thank you again for the opportunity to testify before you 
today. I am happy to answer questions later. And good luck to 
all of us that appropriate in November.
    Mr. Shuster. Thank you, Mayor Doyle. Our next witness today 
was introduced, the Honorable Heather Carruthers, the county 
commissioner from Monroe County, Florida. And she is testifying 
on behalf of the National Association of Counties.
    Again, thank you for being here, and please proceed with 
your statement.
    Ms. Carruthers. Thank you, Chairman Shuster, Ranking Member 
DeFazio, and distinguished members of the committee for this 
opportunity to testify on FEMA's role in local land-use 
decisions. My name is Heather Carruthers, and I am an elected 
county commissioner from Monroe County, Florida, home of the 
Florida Keys. And today I am representing the National 
Association of Counties.
    The topic of this hearing is of great importance to my 
county and to many other counties across the United States. In 
fact, in Monroe County we have been dealing with this issue for 
more than three decades, initially through locally originated 
efforts, and eventually through the courts.
    The National Flood Insurance Program is vital to us, and 
any changes to the program and its requirements directly affect 
our residents, businesses, and local economy. Although counties 
are highly diverse across the country, we share many of the 
same goals and responsibilities. We establish local land-use 
policies that protect our natural resources and environment, 
but also provide the tools and foundation needed for 
development that helps our communities. In Monroe County we 
have worked diligently to identify solutions that help us 
balance both of these goals. Today my remarks will focus on 
three points.
    First, local governments work daily to craft land-use 
policies that protect endangered species, mitigate disasters, 
and facilitate economic development in compliance with existing 
State and Federal species protection regulations. In most 
States, land-use planning and regulation is carried out 
primarily at the local level. Through this land-use authority, 
we help to shape the local communities within our 
jurisdictions.
    In my county we have approximately 30 endangered and 
threatened species. We work to protect these species and their 
habitats in many ways, including establishing ordinances that 
limit construction and development in specific areas of the 
county. Our local regulations cap building permits for many 
reasons, the most important of which is to protect 
environmentally sensitive land. These local land-use policies 
are developed through extensive coordination with our 
communities, as well as our State and Federal partners. We have 
long required coordination with the Fish and Wildlife Service 
before issuing any building permits.
    Second, because NFIP is so important to our flood-prone 
communities, local governments have little choice but to comply 
with its participation requirements. In 2012, the Government 
Accountability Office estimated that about 95 percent of the 
Nation's counties had NFIP policies in their jurisdictions. In 
Monroe County, we have over 27,000 NFIP policies, and Florida, 
as a whole, has over 1.8 million.
    The importance of the NFIP to our county was highlighted 
when, in 2005, a Federal court halted issuance of new NFIP 
policies for nearly 50,000 parcels in Monroe County, following 
a lawsuit filed for conservation groups, even though we had 
already carefully developed comprehensive land-use policies to 
protect our environment and native species. For 7 years, this 
FEMA injunction remained in place, and owners of the parcels 
were unable to build. Construction costs skyrocketed, and the 
permitting process dragged. We documented instances of 
homeowners paying over $1,000 more in permit fees, and waiting 
almost a year for Fish and Wildlife Service approval before 
they could proceed.
    The only homeowners and businesses that were able to move 
forward were those with deep pockets who could do without flood 
insurance. And as you can imagine, this really hurt our working 
families and small businesses. It further slowed economic 
growth and drove up business and housing costs.
    Finally, species protection regulations carried out through 
NFIP have typically been one-size-fits-all solutions that 
consider neither the variance in local communities nor our 
existing species protection efforts. As a result of the 
previously mentioned lawsuit, reasonable and prudent 
alternatives, RPAs, required our county to revise our flood 
damage prevention ordinances. We were required to implement a 
new permit process that was essentially a repackaging of 
existing county regulations with multiple layers of added 
bureaucracy. Owners of properties within endangered species 
habitat areas were already required to seek Fish and Wildlife 
Service approval before getting county permits for development.
    FEMA's review did not take into consideration the unique 
circumstances of our county ordinances and procedures. 
Ultimately, no additional habitat acreage was protected. In 
short, the entire process added no real value to the species 
protective measures we had already developed and enforced. It 
simply added more redtape and cost. As you can see from this 
permit review process flow chart, this is what is required of a 
homeowner--property owner before they can get a building 
permit. And this does not even include what happens at Fish and 
Wildlife or FEMA.
    So thank you again, Chairman Shuster, Ranking Member 
DeFazio, and members of the committee, for this opportunity to 
provide the local perspective on how advancing species 
protection efforts through NFIP is problematic and ultimately 
counterproductive at the local level. And I am happy to answer 
any questions that you may have.
    Mr. Shuster. Thank you, Commissioner Carruthers. And our 
final witness today is Mr. Jon Chandler, the chief executive 
officer of the Oregon Home Builders Association. He is 
testifying on behalf of the National Association of Home 
Builders.
    Thank you for being here today, and please proceed with 
your statement.
    Mr. Chandler. Thank you, Chair Shuster, Ranking Member 
DeFazio, members of the committee. I really appreciate the 
opportunity to come talk about what is happening with NFIP on 
behalf both of NAHB and my organization, the Oregon Home 
Builders. I am the CEO of the Oregon HBA. We are a State 
association of the National Home Builders, and this is an issue 
of great interest for us across the country.
    I am going to address this morning, in addition to my 
written testimony, the land-use problems that are created by 
linking the Endangered Species Act with FEMA's National Flood 
Insurance Program. Quite simply, it is inappropriate to use the 
NFIP to protect endangered species. Doing it that way adds 
duplicative, burdensome, and costly regulatory barriers that 
will prevent the development of communities in a sensible and 
planned fashion. It will hurt well-paying jobs, and it will 
increase the price of housing beyond the means of many middle-
class and working families.
    Courts have held recently that FEMA must consult with the 
National Marine Fisheries Service concerning impacts of the 
NFIP on endangered species. In Oregon, as you have heard, NMFS 
issued a biological opinion dictating the implementation of 
NFIP. The State of Oregon and every city and county in Oregon 
has invested over 40 years in comprehensive statewide land-use 
planning, the money that goes along with that, the 
infrastructure planning and development that goes along with 
that. But with this NMFS BiOp, those efforts will be 
significantly undermined, if not completely undone.
    The terms of the BiOp could result in large areas of land 
that can no longer be developed. Under Oregon law, local 
governments can be held accountable for that diminution in 
value. What we call measure 49 holds that any Government entity 
that downzones or reduces by regulatory measures the value of a 
piece of property must provide compensation to the property 
owner for that diminution in value.
    Many communities simply will not have the resources to 
cover that, and may consider, as a result, dropping out of the 
NFIP. But due to the mandatory requirements for building for a 
homeowner in a flood plain, dropping out of the NFIP could 
result in the homeowner defaulting on their mortgage if they 
can't afford or access the high cost of private flood 
insurance.
    The courts have ruled that both mapping and the NFIP's 
minimum eligibility requirement criteria are discretionary. And 
therefore, FEMA must consult with the National Marine Fisheries 
Service. NAHB's position is that those supporting components 
should be labeled nondiscretionary, and that FEMA should not be 
required to consult. The maps that FEMA prepares are based 
solely on technical evaluations of the base flood elevation. 
FEMA is drawing a line on a map based on science, math, and 
engineering. It cannot and should not be required to draw that 
line simply to benefit endangered species.
    Under the NMFS BiOp, if a landowner or local government 
seeks changes or revisions to areas in existing flood plain 
maps, FEMA would not be able to process that request until the 
owner demonstrates that all potential impacts to endangered 
species or the flood plain have been fully mitigated.
    FEMA does not authorize or approve the construction of 
structures or the replacement of fill in or around flood 
plains, and FEMA does not require what mitigation is required. 
FEMA's role is to ensure that the information depicted on the 
maps is accurate and scientifically sound.
    NAHB also believes that the minimum eligibility criteria 
for communities to participate in NFIP should also be 
nondiscretionary. The BiOp requires the square footage of new 
structures to be 10 percent or less of the average lot size. 
And to give you a sense of that, in the Pacific States, 
according to the Census Bureau data, the average size of a lot 
is 6,525 square feet. Under this requirement in the BiOp, that 
reduces the size of a single-story home to 652 square feet.
    Now, in Oregon, where the average lot sizes are 4,000 to 
5,000 square feet and 2,500-square-foot lots are not uncommon, 
that same 10 percent coverage requirement would have houses 
with a first floor--or a one-story house of 250 square feet. 
Compared on a national basis, the average home size is 2,500 
square feet. That sort of a 10-percent requirement will 
dramatically hinder growth in communities where families want 
to live, and tramples on local government zoning authorities.
    These changes are occurring on a State-by-State basis, but 
they have national implications to the National Flood Insurance 
Program. Three States are currently engaged in consultation: 
Florida, California, and Arizona. There are billions of dollars 
of home value and remodeling costs at risk. For those States 
combined, NAHB estimates over $400 billion of home values and 
over $4 billion in remodeling spending is potentially at risk. 
Nationwide, that would be over $1 trillion. And we add in the 
proposal of the Atlantic sturgeon potentially to the protected 
species list, it is possible that States from Georgia to Maine 
may be next on the NMFS consultation list.
    For a lot of homebuilders, we already have to go through 
section 7 consultation in the development process. That 
protects endangered species under existing law. That is 
currently on the books. We don't believe this adds anything.
    And in conclusion, Mr. Chairman and Ranking Member, we 
appreciate very much the opportunity to put these concerns in 
front of you, and look forward to working with you, going 
forward. I would be glad to take any questions.
    Mr. Shuster. Thank you, Mr. Chandler. And again, this is an 
important issue. Any time that the Federal Government tries to 
expand an agency's powers without congressional authority, and 
go beyond the mission of FEMA, it is troubling. And just the 
last words you said there, Mr. Chandler, it can be very, very 
damaging to development, to the economy, to job creation, which 
is important to all of us.
    And this is happening right in Mr. DeFazio's State, in his 
backyard. So I am going to forgo my questions. I am going to 
yield Mr. DeFazio my 5 minutes so he has a full 10 minutes to 
really get into questioning here, because he knows the 
situation. And so I will leave it to him to use my 5 minutes.
    So, Mr. DeFazio, I yield to you.
    Mr. DeFazio. Thank you, Mr. Chairman. I would point out 
that, well, first, let me--a couple of questions of FEMA, and 
then I will point something out.
    Mr. Grimm, does FEMA have the authority to regulate 
privately funded development on private lands under the NFIP?
    Mr. Grimm. [No response.]
    Mr. DeFazio. A simple yes or no would do.
    Mr. Grimm. No.
    Mr. DeFazio. OK, good, thank you.
    [Laughter.]
    Mr. DeFazio. Now, you are going to be required, because of 
the RPA in Oregon, to amend your regulations to include an ESA 
standard. Will that change apply only to the State of Oregon, 
or will it apply to all of the States of America?
    Mr. Grimm. When we change our regulation, it applies to all 
22,000 communities.
    Mr. DeFazio. OK, all 22,000 communities, which I assume are 
scattered among the 50 States.
    Mr. Grimm. Correct.
    Mr. DeFazio. OK. And then, you know, that--have you 
consulted with--I assume you have in-house counsel, or do you 
use the Justice Department for legal consultations on your 
authority?
    Mr. Grimm. We have in-house counsel, sir.
    Mr. DeFazio. OK. And what does in-house counsel say about 
you asserting regulatory authority that wasn't extended to you 
by the United States Congress?
    Mr. Grimm. That we can only do what is within our 
authorities, and there are concerns over a number of the RPAs 
being outside of our current authorities.
    Mr. DeFazio. So then, arguably, perhaps your agency, in 
exceeding its authority to follow the directives of National 
Marine Fisheries and agreeing to adopt this RPA, is vulnerable 
to being sued.
    Mr. Grimm. I--yes. And for the RPAs that are not within our 
legal authorities, we would seek other alternative RPAs, 
working with the States and the communities to implement the 
intent of the RPAs as issued by Marine Fisheries.
    Mr. DeFazio. Now, the authority granted to you by Congress 
is you get communities who wish to participate in the program 
to adopt minimum standards, yes?
    Mr. Grimm. Correct.
    Mr. DeFazio. So in this case we--you are far exceeding the 
minimum standard approach.
    Mr. Grimm. That is correct, sir.
    Mr. DeFazio. How can that be? Never mind, that is 
speculative.
    But the point is, I--you know, I am having trouble tracking 
this whole thing. I put up a map earlier showing downtown Coos 
Bay, Oregon. And under what you are being forced to adopt by 
NMFS in declaring, you know, this area will be within the 
enhanced 100-year flood plain, well, we don't know what the 
enhanced 100-year flood plain is yet, do we?
    Mr. Grimm. We don't, sir.
    Mr. DeFazio. We don't. So this is actually just using the 
existing 100-year flood plain. One would assume that when you 
include climate change, that these flood plains are probably 
going to, especially in coastal areas, become much larger.
    Mr. Grimm. Yes. From FEMA's perspective, when you include 
the climate change, the erosion zones, future conditions 
hydrology, we would expect flood plains to significantly 
increase and then the applicable flood plain management 
regulations would apply through the RPA----
    Mr. DeFazio. So many properties now that aren't required to 
have Federal flood insurance in order to obtain bank financing 
will be required to in the future.
    Mr. Grimm. Yes, sir. When we revise our regulations, that 
would apply.
    Mr. DeFazio. Now, don't you--didn't Biggert-Waters require 
an advisory committee for mapping? Because mapping has been 
controversial and, in part, led to the adoption of Biggert-
Waters. Is that correct?
    Mr. Grimm. Absolutely. The Technical Mapping Advisory 
Council was established by BW-12 to provide guidance to FEMA 
and advice on our mapping standards.
    Mr. DeFazio. Right. Doesn't the National Oceanic and 
Atmospheric Administration, of which NMFS is a subsidiary, so 
to speak, don't they have a seat on that advisory committee?
    Mr. Grimm. They do have a seat on that.
    Mr. DeFazio. OK, and has the advisory committee proposed 
this dramatic change to the rules?
    Mr. Grimm. The committee has proposed some future 
conditions mapping, some erosion mapping, not necessarily in 
line with what the RPAs are recommending. That is one of our 
concerns, is that Congress established TMAC----
    Mr. DeFazio. Right.
    Mr. Grimm [continuing]. To provide guidance to FEMA. And 
when I personally was involved with the negotiations with 
Marine Fisheries on this, this was one of the key issues that I 
brought up, in that the RPAs must be aligned with 
recommendations from the map and advisory council, and that is 
one of our----
    Mr. DeFazio. But in this case, what is being recommended 
for Oregon, which is going to require a regulatory change which 
will apply nationwide, is not following the advice of that 
committee.
    Mr. Grimm. There are differences.
    Mr. DeFazio. Yes, there are. So one subagency of an agency 
that is represented on the advisory committee established by 
Congress is forcing you to exceed your legal authority, to 
impose more than minimum standards, and to link, you know, the 
Endangered Species Act to the NFIP eligibility requirements.
    Now, what kind of a change is that going to be? Some say, 
``Oh, it is just really simple, you just reference it.'' Do you 
think that can be done in one sentence? I have never seen an 
administrative regulation that is one sentence long.
    Mr. Grimm. Yes, for----
    Mr. DeFazio. I mean, usually we write 1 sentence, and you 
write 100 pages. So how is that going to work?
    Mr. Grimm. Thank you, sir. From FEMA's perspective, you are 
right, there is one reference to a legal requirement or a 
regulatory change in the RPAs. We are currently evaluating 
that. We believe there are going to be a number of other 
regulatory changes that are required, particularly around 
redefinition of the special flood hazard area and minimum 
standards.
    Mr. DeFazio. OK. So to Ms. Shirley, now, you referenced the 
potential conflict. I mean since--it is kind of odd. Washington 
State, where our regional office of NMFS is based, was allowed 
to go with performance standards, but it is a State that does 
not have comprehensive, statewide land-use planning. Oregon, a 
State that has comprehensive, statewide land-use planning, is 
being told, no, you must go with a prescriptive, one-size-fits-
all solution being dictated by a Federal agency to another 
Federal agency that will be imposed on the State.
    You already talked about the logistical problems of having 
232 communities change their local plans. Having been a county 
commissioner, I am quite familiar with the process, and you are 
right, it can be done in the timeframe we are talking about.
    But one of the key things in our land-use law is compact 
growth, sometimes controversial--recently in the city of 
Eugene, which I represent--because even though it is sort of 
optimal for planners to densify, sometimes the people who live 
there don't like it. But the point is, that is probably the 
major goal, in addition to resource conservation, as to avoid 
the sprawl that many other States have seen.
    But there is also another thing where communities are 
supposed to have a stock of buildable land, or developable 
land, both for commercial, industrial, and/or residential 
purposes. So if our core areas, particularly, you know, 
downtown Coos Bay, which cries out for a lot of renovation and 
redevelopment, is off limits, and the city wishes or has to 
accommodate growth, then they are going to have a very arguable 
case to greatly expand their urban growth boundary. Isn't that 
correct? I mean it seems to me the only option.
    Ms. Shirley. Yes, we share that concern. We also believe 
that the RPA, as it exists today and can hopefully be 
negotiated further in the future, allows for redevelopment 
projects that incorporate some improvement to the salmon 
habitat without stopping development altogether.
    So I think there is a middle ground there. And through the 
work groups and working with FEMA we hope to find that middle 
ground.
    Mr. DeFazio. But it is not--I mean it is not explicit in 
the RPA that those sorts of--I mean since they moved us to a 
dictated approach versus a performance-based approach, it is 
not clear we will be able to do that.
    Ms. Shirley. It could be difficult. The RPA is not cast in 
stone. It does have a little bit of flexibility, and we need to 
find and leverage those flexibilities.
    Mr. DeFazio. I just--you know, as a--you know, I don't 
even--there is no one here I guess who can really ask the 
question. I mean how does Highway 101 become critical salmon 
habitat?
    Mr. Chandler, can you help me with that one? Do you have 
any thoughts? I mean it is a highway, you know, and it is 
between the harbor and downtown. And then you have downtown, 
where the local newspaper--hopefully they have a reporter 
listening, because they are critical salmon--they should just 
look around the office and be really careful, because they 
might step on a salmon.
    Mr. Chandler. Ranking Member DeFazio, Members, I think the 
answer to that probably involves working for a Federal agency 
that isn't here.
    There is no way it is salmon habitat. And that is part of 
the problem, I believe, with having a--what should be a 
science-based approach being handled as though it was a matter 
of philosophy.
    Yes, we in Oregon--as Congressman DeFazio has indicated, we 
have a long history of salmon protection, of working on natural 
resource protection, of having urban planning that has as its 
objective saving resource land. To come in and say now that a 
main highway or a parkway in Portland or a pick your street in 
any of those 232 cities in Oregon is now a salmon habitat is 
ridiculous. And that has been part of our reaction to this, is 
that it simply doesn't make sense on the ground, as we have 
built in Oregon.
    Most of you in your States, I know, the people who settled 
there settled near the waterways, because that would be silly 
to settle where there wasn't water. So most cities in this 
country are built around lakes, streams, rivers. Oregon is no 
different.
    Most of our development is now, by State law and State and 
local planning, focused on those downtown core areas, as 
Congressman DeFazio indicated, to avoid urban sprawl. And what 
this does to that notion of taking those waterways off limits 
and now we, for 20 years' worth of land supply, or simply to 
keep up with the growing population, we expand out onto the 
farmland, which is exactly what the 50 years of policy in 
Oregon has said we should not do. And frankly, my industry 
supports that, and we are aghast at this, as well, that what we 
thought we were doing is now being changed by fiat, including, 
apparently, the designation of Highway 101 as a salmon habitat.
    Mr. DeFazio. Thank you.
    Thank you, Mr. Chairman.
    Mr. Barletta [presiding]. Thank you. As a former mayor, I 
completely appreciate the effort and money that a community 
puts into land-use planning, infrastructure, development, and 
economic revitalization. I also believe that local officials 
are in the best position to know and understand the unique 
challenges facing their communities so that they can implement 
the best policies to benefit their citizens.
    Now, from what I had heard today it sounds as if one part 
of the Federal Government, NOAA's Fisheries Service, is asking 
another part of the Federal Government, FEMA, to impose land-
use restrictions on State and local government. That would 
certainly cause concerns and have great implications across 
this country.
    Mr. Grimm, the Oregon RPA requires FEMA to amend existing 
and issue new regulations regarding development in the flood 
plain. From FEMA's perspective, what does that mean for people 
in my home State of Pennsylvania and other areas of the 
country?
    Mr. Grimm. Sure, thank you. When FEMA issues regulations, 
it impacts over 22,000 communities. We have designed our 
regulations so that we implement a consistent, uniform program, 
nationwide. One of the concerns that we have, as the RPAs are 
written, and the ongoing State-by-State lawsuits and 
implementation, is inconsistent implementation of the NFIP. So 
we would see, as we implement any regulatory changes to address 
the RPAs in Oregon, that would impact the entire United States.
    Mr. Barletta. And from FEMA's perspective, what is the role 
of the NFIP? And does the Oregon RPA require you to do things 
outside of the roles and authorities which Congress prescribed 
to you?
    Mr. Grimm. Yes. From FEMA's perspective we do have concerns 
over a number of the RPAs being outside of our regulatory 
authority. For those RPAs that we believe are outside of our 
regulatory authority, we would work with committees and States 
to develop alternative RPAs such as what Ms. Shirley indicated. 
We are trying to work that flexibility to implement something 
that makes sense to communities and States.
    Mr. Barletta. Mr. Chandler, if FEMA is forced to comply 
with the Oregon RPA, what will be the most significant impact 
on local housing development? And will that be local to only 
Oregon, or will there be repercussions across the country?
    Mr. Chandler. Congressman Barletta, Members, the 
implications--it is a national flood insurance program. And I 
think FEMA, in the correspondence I have seen, has been pretty 
clear. They don't want to do the Oregon flood insurance 
program, and the Florida flood insurance program, and the 
California flood insurance program. So I think what you are 
looking at here is the template being proposed nationally.
    As far as its impact in Oregon, you know, without getting 
too deep in the land-use weeds of my State, what this BiOp 
would require is a 170-foot set-back on--from the high-water 
mark of every stream, including ephemeral streams that only run 
seasonally in those 232 cities. And if you think about your own 
communities, or what Congressman DeFazio put on the map for 
Coos Bay, think of a 340-foot swath of essentially a no-build 
zone going through every community, or several times in that 
community, based on where the waters were. That is going to 
have a huge impact--particularly in Oregon, I suspect--because 
of our urban growth boundaries. But even in a State that 
doesn't have that, if you think about that land coming out of 
production, and then that development capacity of that land 
going someplace else in your community is going to be dramatic.
    The other piece of this, of course, is that all the 
infrastructure planning is based upon the zoning on the books 
right now, whether it be Oregon or Illinois or California, it 
doesn't matter. Every local government is basing their 
infrastructure--water, sewer, roads, et cetera--on where the 
maps say the development is going to go if this goes into 
effect. And now that development goes out of those areas 
someplace else, then not only is the land-use pattern changed, 
but the infrastructure financing pattern, as well, which is 
going to be doubly disastrous to those communities.
    Mr. Barletta. Thank you. The Chair now recognizes Ranking 
Member Carson for 5 minutes.
    Mr. Carson. Thank you. Thank you, sir.
    Mr. Grimm, I understand that the Oregon reasonable and 
prudent alternatives required FEMA to change its regulations, 
guidance, and community rating service program. Will these 
changes be effective only in Oregon or could these changes 
apply nationwide, especially in the Hoosier State?
    Mr. Grimm. Yes, sir. The--when FEMA changes its 
regulations, they will apply to all participating communities, 
including over 22,000 communities, and including those nearly 
1,400 communities that participate in the community rating 
system that are already implementing higher standards, often to 
the benefit of species.
    Mr. Carson. Madam Shirley, do the RPAs require the State of 
Oregon and/or local communities to change existing laws? And, 
if so, have any laws that need to be changed been identified 
yet? Will the procedures used by the Oregon legislature meet 
the timeframe even used in Oregon?
    Ms. Shirley. Yes. I believe we have identified a couple 
places where our State laws may need to change. And--but most 
importantly, the local communities will need to change their 
regulations to comply. And that is a huge challenge.
    Mr. Carson. Mayor Doyle--thank you, ma'am. You mentioned 
that you have met with both FEMA and NMFS over the years, yet 
the RPAs were still developed essentially in a vacuum. Do you 
feel that either Federal agency considered your comments when 
the RPAs were developed?
    Mr. Doyle. You know, I really don't know if that is the 
fact. Certainly what was ruled was not what we were looking to 
see happen. So I guess the answer would be a presumptive no.
    Mr. Carson. OK. Mr. Chairman, I yield back.
    Mr. Barletta. Thank you. I now recognize Mr. Gibbs from 
Ohio.
    Mr. Gibbs. Thank you, Mr. Chairman. I am tempted to yield 
my time to the ranking member, but I heard the next one is 
going to do that, so I am trying to understand this issue a 
little bit.
    Mr. Chandler and Mr. Grimm, if a participating community 
made the choice to drop out of the National Flood Insurance 
Program, does that change a homebuilder's responsibility under 
the Endangered Species Act?
    Mr. Grimm. Not from FEMA's perspective, and not--speaking 
on behalf of NMFS. Everybody--communities, individuals, and 
State and Federal Government have responsibilities under the 
Endangered Species Act. If they withdraw from the flood 
insurance program, their--FEMA's involvement in that compliance 
with the Endangered Species Act, for example, through these 
RPAs, that would not apply. There would be other requirements 
that--I can't speak for NMFS or the Services, but that would 
apply.
    Mr. Chandler. Mr. Chair, Congressman Gibbs, under current 
law, leaving out this RPA, if you have a 404 permit, for 
example, as a development project or subdivision, you have to 
go through consultation. That would not be changed. The only 
connection between the homebuilder that wasn't subject to 
current law and now is this RPA.
    So, if we are not--if we take private flood insurance out, 
we are not subject to FEMA, we are not subject to NMFS thinking 
FEMA should do something, and now we are out of the program 
altogether. So we would not have to do any sort of hoop-jumping 
under the ESA, unless we already did under other Federal law.
    Mr. Gibbs. That is what I kind of figured.
    Mr. Grimm, in your testimony you mentioned instances in 
Oregon and Florida where FEMA has had to undertake 
consultations under the ESA and the implementation of the 
National Flood Insurance Program. Are you aware of similar 
issues potentially occurring in Ohio?
    Mr. Grimm. I am not aware of any right now in Ohio. There 
are other States--California, Florida, we had some in Arizona.
    Mr. Gibbs. I guess, for the mayor, this RPA and the 
Endangered Species Act with FEMA, this is where it is all 
conflicting, the challenges. Can you explain that a little 
more, what is happening?
    Ms. Carruthers. Sure. Thank you very much for the question.
    The difficulty for us is that it simply adds a level of 
bureaucracy, time, staff time that--and yields no real benefit 
in terms of endangered species protection. However, we are 
required to do it because the flood insurance program is so 
important to our community. We saw no net increase in the 
acreage, habitat acreage that was protected. We simply saw a 
greater amount of paperwork, frankly.
    You know, FEMA----
    Mr. Gibbs. Is this another example of one-size-fits-all 
policy out of DC?
    Ms. Carruthers. Absolutely. I mean, we--you know, we--as I 
mentioned, we have over 30 endangered species and threatened 
species in the Keys. We are--for us, our environment is our 
economy. So we are very concerned with preserving the best 
aspects of that environment, and the--our ecosystem. So, you 
know, we seek to work with our governmental partners to do 
that, but only where it seems to make sense. And this is a case 
where it doesn't make sense, it simply complicates the process.
    Mr. Gibbs. Mr. Grimm, do you agree with that, or disagree 
with her?
    Mr. Grimm. Could you clarify which part?
    Mr. Gibbs. She is talking about, you know, obviously, in 
the Florida Keys, you want to protect the environment and 
endangered species, because that is part of your tourism, part 
of your whole habitat, you know, it is ecosystem. And she has 
basically said that this is conflicting with the local input, 
it is a one-size-fits-all policy coming out of DC. I'll just 
give you a chance to react to that.
    Mr. Grimm. Sure. Yes, it is an interesting process, the 
consultation process is fed-to-fed, essentially. I personally 
had direct involvement in the RPA negotiations, or with Marine 
Fisheries, and recommended performance-based standards over 
prescriptive, recognizing that that is how we implement the 
National Flood Insurance Program, so that communities can come 
up with different alternative ways to implement this.
    So, it does add a tremendous level of complexity, I think, 
to local government land-use decisions and authorities.
    Mr. Gibbs. Mr. Grimm, is there anything that Congress 
should be addressing to maybe help fix this, or help--you know, 
so it is a little simpler to get the process done?
    Mr. Grimm. I appreciate the opportunity to testify today to 
discuss the complexities of what is going on with this issue.
    Mr. Gibbs. Anyone else want to respond to--Ms. Carruthers?
    Ms. Carruthers. Well, thank you for that question. I mean, 
to me, I think that being able--that directing--well, first, I 
am not convinced that endangered species protection is a FEMA 
responsibility. It think that there are plenty of other 
entities that take care of that issue. So, I am--I would--if it 
is within Congress' authority to remove FEMA from that 
particular aspect of this, it seems to make sense to me.
    You know, conversely, the Endangered Species Act requires 
every Federal entity to comply with its regulations. So if we--
why stop at FEMA? Why not talk about low-income housing 
assistance? Why not talk about mortgages in general? I mean, 
you know, at some point we need to be--we need to make sure 
that the folks who can do a particular job well are given the 
tools to do that job well, and everybody else gets out of the 
way.
    Mr. Gibbs. Yes.
    Ms. Carruthers. Thank you very much.
    Mr. Gibbs. Thank you. My time has expired.
    Mr. Barletta. The Chair recognizes Ms. Norton for 5 
minutes.
    Ms. Norton. Thank you, Mr. Chairman. I am not sure which 
parts of the Endangered Species Act apply to my district, the 
Nation's capital, District of Columbia, except for Members of 
Congress who may be endangered in the upcoming election.
    [Laughter.]
    Ms. Norton. But I can tell you this, that iconic parts of 
the Nation's capital are located in a flood plain. So I have 
listened very carefully to this Oregon testimony, and 
appreciate it.
    Indeed, I have just finished working with FEMA on the 17th 
Street levee on the Mall to prevent floods on the Mall and the 
surrounding Federal and home-owning communities. Just this week 
I had a congressional briefing on flood risks to the Nation's 
capital, the District of Columbia throughout, because this city 
is located on the banks of two rivers, the Potomac and the 
Anacostia.
    Now, therefore, when we heard what has occurred with 
Oregon, despite our understanding of the Endangered Species Act 
and how vital it is, one of the first questions that came to my 
mind, Mr. Grimm, was whether FEMA has the resources to 
potentially apply that model nationwide, if that is what you 
had to do. Because you answered to Mr. DeFazio that it should 
apply to all States, that it would apply to all States.
    Mr. Grimm. Yes, ma'am. The resource issue is a real issue. 
If this applies to 22,000 communities, it is not only a 
resource issue at FEMA and our regional offices to implement 
something of this magnitude, but to our State and local and 
tribal partners that would also be implementing the 
recommendations through the National Marine Fisheries Service 
RPAs, if we change our regulations to implement.
    Ms. Norton. So nothing like that is envisioned, in terms of 
its resources. At a time when we are trying to get resources 
just for vital life and death matters, this is a matter of some 
concern.
    I also listened very closely to Mr. Doyle's testimony, 
because Beaverton, like the District of Columbia, wanted to 
expand its economic development. I have just had two really 
huge bills to come out of this Congress, one for the Southeast 
Waterfront, the Southwest Waterfront. The only way to expand in 
the Nation's capital was to build right on the waterfront. We 
are very, very pleased with what is happening there. So, I have 
been looking very closely at the land-use decisions around 
there, which, by the way, have already been made, and are going 
to bring us extraordinary amounts of revenue.
    Now, I would like to ask Mr. Grimm, in light of Mr. Doyle's 
testimony, I want to get an understanding of public input in 
the prudent--what is it, reasonable and prudent alternatives, 
RPA, process, why there isn't--I mean in this Congress we are 
used to learning from the public. So virtually any regulation I 
can think of has public input, so we know what we are doing, 
both in terms of our own district, and in terms of the 
administrative process itself.
    So why isn't there automatic public input of the kind that 
I am sure you are used to? And should there be more public 
input? How would you go about it?
    Mr. Grimm. Thank you. It is a unique process, Federal-to-
Federal. And in fact, the engagement that FEMA had with NMFS 
during the development of the RPAs was unique. I personally was 
involved with discussions with NMFS with the Regional 
Administrator----
    Ms. Norton. Because I have one more question, I just want 
to know, is it possible to get input like the input, for 
example, from Beaverton before all of this occurred?
    Mr. Grimm. Yes, ma'am. What we are going to do now--input 
wasn't necessarily conducted through the NMFS process in the 
development of the RPAs. That could be, I believe, done better. 
I can't speak on behalf of NMFS.
    However, now that the RPAs are out, FEMA's intent in 
implementing the RPAs is to work closely with State, community, 
and tribal partners to develop reasonable alternatives for any 
of the RPAs that aren't within our authorities, and implement--
--
    Ms. Norton. It is very important for the chairman to know 
what it is you intend to do about that input.
    Mr. Chairman, with your indulgence, I just have one 
question about the flooding of the National Mall and the 
Archives.
    In 2006, Federal buildings in the Federal Triangle were 
flooded. Horrendous pictures--for example, I remember seeing a 
picture of the Archives auditorium, the whole auditorium, or 
much of the front of the auditorium was under water. And that 
is all--IRS employees were put out of their headquarters for 
more than 6 months. So I have a real interest in who provides 
guidance.
    Does FEMA provide any guidance to Federal agencies on their 
land-use decisions and mitigation strategies? How do I know 
that the Archives and the entire Federal Triangle is not going 
to be flooded again, or that they have--do I know that they 
have taken mitigation in--of the kind that States, for example, 
would be required to take?
    Mr. Grimm. Sure. Federal agencies comply with Executive 
Order 11988, which--for flood plain management. So each Federal 
agency is responsible for looking at if they are in the flood 
plain, mitigation strategies to reduce damages----
    Ms. Norton. Can you tell me whether that has been done for 
the Federal Triangle?
    Mr. Grimm. I don't, but we can follow up and----
    Ms. Norton. Mr. Chairman, I would like that information 
submitted to the chairman, and I am sure that they will give it 
to me. Very important for me to know that.
    Mr. Grimm. Yes, ma'am. Thank you.
    Mr. Barletta. The Chair recognizes Mr. Webster from Florida 
for 5 minutes.
    Mr. Webster. Thank you, Mr. Chairman. I had a question for 
Mr. Grimm. You mentioned ongoing consultation regarding the 
implementation of the NFIP in Florida. Can you briefly discuss 
the basis of that consultation?
    Mr. Grimm. Sure. It is similar to other ongoing issues 
across other States in that we are being challenged in regard 
to consulting on the implementation of the National Flood 
Insurance Program, and its role in private--we believe, from 
FEMA's perspective--in private flood plain development.
    So, similar to Oregon, we are being challenged at looking 
at implementation through the permitting process, the flood 
plain management, as well as our mapping standards, as we 
implement in communities throughout Florida.
    Mr. Webster. So, during the process did FEMA get any public 
input regarding changes in implementation to the Services?
    Mr. Grimm. For the public process in Oregon?
    Mr. Webster. No, Florida.
    Mr. Grimm. In Florida? I do not believe so at this point. 
This is a--again, similar to the Oregon--that Federal-to-
Federal consultation process that doesn't necessarily include 
public process.
    Mr. Webster. Thank you very much. Yield back.
    Mr. Barletta. The Chair recognizes Ms. Frankel from 
Florida.
    Ms. Frankel. Thank you, Mr. Chair. Thank you to the 
witnesses for being here.
    So I want to just--I want to give an example of a real 
dilemma that a very, very poor city in my home county has. It 
is called South Bay. I am just going to go through some things 
that I think we have already said, but--to lead up to the story 
here.
    So Congress created the National Flood Insurance Program, 
as we have been talking about, NFIP, in 1968 in order to make 
flood insurance reasonably available to all property owners. We 
know that homeowners who live in a federally designated flood 
plain must obtain flood insurance in order to qualify for a 
federally backed mortgage. And I think, also, there is--there 
are other mortgages--even private mortgages, in some cases, 
requires that also.
    So, in order for--and, Honorable Carruthers, I think you 
mentioned this--in order for a community to participate in the 
NFIP, it must adopt FEMA's flood plain map and meet minimum 
standards and regulations to mitigate flood damage. The flood 
maps declare what land is within a 100-year flood plain. I want 
to emphasize that, so I guess meaning that areas which FEMA 
determines will flood once every 100 years, or has a, I guess, 
a 1-percent chance of flooding every year for 100 years. Is 
that right, the 1 percenter?
    Mr. Grimm. [Nods head.]
    Ms. Frankel. OK. The participation in NFIP and compliance 
with FEMA land-use directives is technically voluntary, as we 
have heard, but local governments have little choice but to 
comply with the NFIP's participation, because residents need 
flood insurance, and there is virtually--the private 
alternatives--well, in Florida, I don't even know if there is 
any--is there anything in Florida these days?
    Ms. Carruthers. Nothing significant that I----
    Ms. Frankel. I know, I got----
    Ms. Carruthers. Surplus lines, possibly.
    Ms. Frankel. I got booted out of my flood insurance. All 
right.
    So, now I want to just talk about the dilemma with South 
Bay. The new flood maps deem the city of South Bay, Florida, to 
be completely within a 100-year flood plain, requiring the 
residents of this city, which is one of the least advantaged 
cities in our State--I mean we are talking about very, very, 
very poor. So it requires the purchase of costly insurance 
coverage from the NFIP.
    Now, this is new. And the reason that FEMA has said that 
they are going to put South Bay in this is because of the--it 
is near Lake Okeechobee. Lake Okeechobee needs its levees 
strengthened, which is being done by the Army Corps, which is--
I don't want to say anything bad about the Army Corps, but I am 
just saying this has sort of been dragging for a lot of years, 
all right? A lot of lot of years. And now the Army Corps says 
it is going to complete the work on the Herbert Hoover dike in 
9 years.
    OK, so here is my question. Well, to get to it. Oh, if it 
is a 1-percent chance each year for 100 years, and this is 
supposed to be resolved by the Army Corps, which has been 
taking too long--in 9 years--why does South Bay, where one-
third of them are living below the poverty line, have to pay 
the costly premiums now? Because they are not going to be at 
risk for 100 years. OK, try to give that a shot, if you can 
answer it?
    Mr. Grimm. Thank you, ma'am. So, FEMA maps flood plains. 
And one of the areas of--that we do map associated with levees. 
And levees have to meet certain standards in order for FEMA to 
reflect the reduced risk behind levees. The Army Corps builds 
levees and then certifies levees, and then we update the map to 
show that reduced risk. Once Army Corps gets through that 
process of constructing the levee and then certifying the levee 
to FEMA to certify that so that we can then remove that flood 
area behind the levee, and then the insurance requirements 
change based on that newly mapped zone.
    Ms. Frankel. Mr. Chairman, I just ask a--OK, thank you.
    I am glad to hear that. How long will that process take?
    Mr. Grimm. After the----
    Ms. Frankel. Yes.
    Mr. Grimm [continuing]. Certifies? I don't want to say that 
depends, but that depends. It can take some time. It can take 
up to a year or two. I can't give you a certain date. I am not 
familiar with that particular situation. In some cases, when we 
have all of that data well ahead of time--hopefully that is 
occurring in this case, and I can certainly look into that for 
you to find out a little bit more about the case for your 
situation, though.
    Ms. Frankel. Well, I am glad to know that it will 
eventually be alleviated, but I--I mean it is not--you know, 
what can happen to a community, even in a period of 9 years, in 
a few years where people can't get mortgages for houses, and 
you have a economically devastated area now. Could you imagine 
the devastation when people cannot buy homes any more? I mean 
it is a pretty bad situation.
    And the delay being caused not by anything that the people 
are doing or not doing, but the Federal Government in fixing a 
problem. So, you know, I just--I thank you for your answer, but 
I don't think the people in South Bay are going to be happy 
with it.
    And I yield back.
    Mr. Barletta. Thank you. The Chair recognizes Mr. Davis for 
5 minutes.
    Mr. Davis. Thank you, Mr. Chairman, and I am glad I got to 
follow my colleague, Ms. Frankel. You know, 9 years with the 
Corps of Engineers is like a 100-yard dash.
    [Laughter.]
    Mr. Davis. So that is pretty good. Try representing the 
Mississippi River, where we have multiple levees and multiple 
State issues. And some of the concerns that you brought up, you 
know, about there seems to be a race sometimes between FEMA and 
the Corps of Engineers to figure out what is going to cost 
constituents more. Levees need to be upgraded and our locals 
are making the investments to upgrade those levees.
    And at the same time, like in my State of Illinois, we are 
in a different region than Missouri is. So the different 
regions have different priorities as to where they are going to 
update their flood maps, you know, geographically, first. To me 
it would seem more--it would seem like it would be a 
commonsense approach to update those via regional capacities, 
like along the river, along the populated areas, versus rural 
areas. And that is something I know we have discussed with your 
office.
    I do want to get to mitigation. And Mr. Grimm, would you 
agree that States like Illinois have invested in mitigation, 
you know, post-1993 and in 1995 floods, you know, we have moved 
towns completely off of the flood plain, into higher ground, 
because we don't want to have those liabilities during future 
flood events.
    Mr. Grimm. Absolutely, sir. I know the State very well, and 
your State is very progressive.
    Mr. Davis. Well, thank you. I will even take the term 
``progressive'' today as a compliment.
    [Laughter.]
    Mr. Davis. We--Illinois has removed flood-prone properties, 
thus costing the taxpayers less in future flood events. But we 
are a State, too, that is punished because of our population, 
and where our center is, in the northeast corner of the State. 
So when we have disaster declarations, where most of the 
disasters hit in Illinois, they are in rural areas and we don't 
meet the threshold.
    Now, other States that don't have the same problem, would 
you agree that they may not be incentivized to participate in 
the mitigation program as much and invest as much in mitigation 
or participate in hazard mitigation?
    Mr. Grimm. Could you clarify? I am----
    Mr. Davis. So States--smaller States that don't have a 
higher threshold to meet to have a disaster declared each and 
every time a disaster occurs, regardless of whether it is in an 
urban or rural area of their State, are they, under the current 
program, less incentivized to invest in mitigation because they 
are going to be awarded a disaster declaration, whereas States 
like Illinois, high population, one part of the State, we don't 
get declared. We are not--we don't have access to those 
resources in a disaster declaration that States surrounding us 
do, even in the same disaster.
    So, we have invested more on the front end, on the 
mitigation side. To me it seems there is no incentive for 
smaller States, less populous States, a lower threshold, there 
is no incentive, in my opinion, to invest the dollars in 
mitigation.
    And I would--so that is my question to you. Do you believe 
that is true?
    Mr. Grimm. Well, I think the pre-disaster/post-disaster 
mitigation discussion is a very interesting and tough 
discussion. As you know, HMGP dollars for mitigation, the 
Hazard Mitigation Grant Program, provide dollars post-disaster.
    Mr. Davis. But the States have to invest, locals have to 
invest. They have to take the time to do it. And it seems to me 
that, the way the current FEMA formula exists for disaster 
declarations, it disincentivizes them from investing long term 
like States like Illinois are forced to do.
    Mr. Grimm. I think there is the other side of the coin with 
pre-disaster mitigation, and the pre-disaster mitigation 
program that provides States that don't have as many disasters, 
provides dollars available.
    For example, this year we had $100 million available under 
the pre-disaster mitigation program. We just announced those 
awards. We receive four times the dollar--in applications than 
dollars available. So there is, to your point, a huge----
    Mr. Davis. That is----
    Mr. Grimm [continuing]. Need for mitigation.
    Mr. Davis. That is great. And I have got another question, 
so let me reclaim my time.
    But I would urge you, in the next flood on the Mississippi 
River--and there will be one--take a helicopter ride down the 
river. Look left in Illinois, and look at the--you know, the 
limited damage because of mitigation, and then look right, and 
you will see whole towns flooded, still. So there is a lack of 
incentive, I still believe that.
    Now, are you--does the mitigation division run the LOMA 
process?
    Mr. Grimm. Yes.
    Mr. Davis. OK.
    Mr. Grimm. Federal insurance mitigation? Yes.
    Mr. Davis. Yes. It is the process that my homeowners have 
to follow when FEMA, the new map, declares their house or 
property in the flood plain.
    What is the average time it takes for a LOMA request to be 
decided by FEMA right now?
    Mr. Grimm. I don't have that. That is a little bit out of 
my program lane. I would be glad to get those statistics for 
you, though.
    Mr. Davis. OK, because we have a problem with updated maps 
that are not accurate right now. And I think there needs to be 
a better, more succinct process in place that costs taxpayers 
less.
    Sure, we want an appeal process, but I just don't 
necessarily think the LOMA process is as efficient as it could 
be, and I hope you take that message back. And I have run out 
of----
    Mr. Grimm. I will. Thank you, sir.
    Mr. Barletta. Thank you. The Chair recognizes Mr. Curbelo 
from Florida for 5 minutes.
    Mr. Curbelo. Thank you very much, Mr. Chairman, although 
Mr. DeFazio has, I think, dissected this issue very 
effectively, as he is known to do, I do have a couple 
questions.
    And I first want to note I know a lot of communities 
throughout the country invest a lot in resiliency and 
mitigation, and that is certainly the case in the Florida Keys, 
and not just to mitigate against the risks of traditional 
flooding and disasters, which we are accustomed to in Florida, 
but Florida Keys is also leaning forward and thinking about 
climate change and rising sea levels--natural, when you live at 
sea level near the sea. So, I know just how much communities 
like the Florida Keys invest and dedicate resources to these 
efforts.
    So, Mayor Carruthers, I want to ask you, these RPAs--and 
mitigation is important to this committee, I have actually 
filed legislation in support of Chairman Barletta to promote 
smarter mitigation throughout the country, but does anything in 
these RPAs in this policy scheme promote smarter mitigation 
policies that are making the Florida Keys less vulnerable?
    Ms. Carruthers. Thank you, Congressman, for your question.
    You know, as I see that, no. In other words, the RPAs don't 
have anything to do with how one mitigates if one were to 
build. It only has to do with where one builds, and those 
issues are already addressed through our restrictions such as 
our categorization of each property, based on its environmental 
sensitivity, based on its location, whether it is near a 
population center, or U.S. 1, or not, based on its habitat 
quality. So that doesn't really impact--have anything to do 
with mitigation against damage from flood.
    Mr. Curbelo. And, Mr. Grimm, I want to ask you. NFIP in the 
Florida Keys is a way of life. It is just part of who we are. 
And I have an interest in representing my community and 
preserving a strong, robust, healthy NFIP. Do you fear that 
some of these policies could undermine NFIP and perhaps could 
ultimately encourage communities to opt out and weaken the 
program?
    Mr. Grimm. From a FEMA perspective, what I am concerned 
about is inconsistent implementation across the Nation as a 
result of the RPAs, and as we implement regulations that affect 
all communities.
    You know, as you know, Congress designed the NFIP to be 
implemented at the local and State level where land-use 
authority resides, and that is how we have been implementing it 
since 1968, and working with communities to make smart 
mitigation strategies and implement mitigation decisions.
    Mr. Curbelo. So do you perceive any threats to the NFIP as 
a result of these issues that we are encountering in Oregon and 
throughout the country?
    Mr. Grimm. I think the inconsistent implementation of the 
NFIP across the Nation could be a significant challenge.
    Mr. Curbelo. Thank you very much. I yield back, Mr. 
Chairman.
    Mr. Barletta. Thank you. The Chair recognizes Mr. Hanna 
from New York for 5 minutes.
    Mr. Hanna. I am going to yield my time to the ranking 
member, Mr. DeFazio.
    Mr. DeFazio. I thank my friend. I thank the gentleman.
    Mr. Grimm, what exact climate change model are you going to 
use?
    Mr. Grimm. I think the best answer for that is we are still 
looking at available data for that model, and particularly 
looking at the mapping and advisory council recommendations, 
and what they would recommend to FEMA.
    Mr. DeFazio. Yes, I could point you to Oregon State 
University, where we have a couple of world-renowned climate 
change scientists, who say that, actually, there are incredibly 
contradictory models, which are both scientifically credible, 
for Oregon, where we may have more or less flooding. We may 
have way less rain and precipitation--i.e., you know, we may 
actually maybe have a smaller 100-year flood--that is one 
model. The other model is, oh, no, it is going to be a huge 
expansion. So, how the heck are you going to figure that out?
    Mr. Grimm. That is something we are still working out, sir.
    Mr. DeFazio. Yes. OK. Yes, that is going to take some 
interesting work.
    So does that have anything to do with--you sent a letter 
which caused a tremendous amount of concern that they--you 
know, on June 13th, that communities could either voluntarily 
impose a temporary moratorium on all flood plain development 
that adversely impacts ESA-listed species--that would be like 
repaving Highway 101, for instance--or voluntarily implement 
interim measures found in the RPA until all permanent RPA 
elements are in place.
    Now, I understand that this was supposed to kick in on the 
13th of September, or--and it hasn't. What is the delay? How 
long are you going to delay imposing this new restriction?
    Mr. Grimm. So the RPA 1 required outreach and education. 
That letter was part of meeting the requirements from National 
Marine Fisheries Service in implementation of RPA number 1.
    Interesting part about these RPAs are there are two sets of 
RPAs, the interim measures, as you pointed out, and the long-
term measures that, you know, go out to 2021. We have some 
options, as you point out, in terms of a community could adopt 
that type of prohibition. FEMA has no intent to go and suspend 
or implement compliance until we get our guidance out. Our 
intent is to work with the States, communities, and National 
Marine Fisheries----
    Mr. DeFazio. Well, what is the new deadline? I mean you had 
a deadline before. Is there a new deadline? Have you set it?
    Mr. Grimm. No, we have not set a new deadline.
    Mr. DeFazio. OK. And when do we anticipate we might know 
what the new deadline is?
    Mr. Grimm. I can get back to you on that, sir.
    Mr. DeFazio. OK, all right. And then, there is, of course, 
an exception. ``Where implementation of the mitigation 
standards set forth above is impracticable, a community may 
propose alternative mitigation standards''--sounds good--
``which will be acceptable if both FEMA and National Marine 
Fisheries Service agree the alternative standards provide the 
resource protection equivalent to that provided by the measures 
above.''
    You have experts in your agency that can make these sorts 
of determinations on that?
    Mr. Grimm. No, we don't have biologists on staff, per se. 
We can, you know, contract out, for example, to get those 
services. That is my understanding of that particular 
alternative, and that is one that I had involvement in 
negotiating. That is the type of flexibility that we wanted to 
get in there. My understanding, though, is that the----
    Mr. DeFazio. It is not much flexibility if you include 
NMFS----
    Mr. Grimm. I----
    Mr. DeFazio [continuing]. Giving them veto power.
    Mr. Grimm. Yes, sir.
    Mr. DeFazio. You know, I find this all very extraordinary. 
We have two Federal agencies that consult with one another. It 
seems like one that can bully or overrule you and require you 
to do things that are beyond your legal authority, or at least 
propose them, and no public involvement.
    I mean I am really familiar with the National Environmental 
Policy Act. I mean why--you know, this is--it seems to me it 
is, like, way outside of what NEPA usually requires by Federal 
actions. This is a Federal action. Why doesn't NEPA apply, 
which requires a public process, before you propose something? 
Why doesn't that apply in this case?
    Mr. Grimm. I can't speak on behalf of the National Marine 
Fisheries Service in terms of the process with development of 
the RPAs.
    Mr. DeFazio. Yes.
    Mr. Grimm. You know, as I stated, the process that was used 
was very unique, that FEMA got, I believe, extra time to try to 
negotiate and work through these RPAs to make them more 
flexible. And from a FEMA perspective, as well, when, for 
example, we work with communities to either develop ordinances 
or new mapping products, even, we do hold series of committee 
meetings in the mapping process, for example, to get data, to 
talk through----
    Mr. DeFazio. Right. I--no, I was involved with that, and a 
county commissioner----
    Mr. Grimm. Yes.
    Mr. DeFazio. Just one more quick point, Mr. Chairman.
    So now that NMFS--and my understanding is they say, well, 
we don't like what we did in Washington State, because, A, they 
don't have comprehensive land-use planning, unlike Oregon, so 
they have much more sprawl and that, but we gave them 
flexibility, but it is not working sufficiently, but now we are 
going to have a new prescriptive approach in Oregon, which we 
hope to apply nationwide to every State in the Union, no matter 
how different or diverse they are, or what species.
    How do we get Washington State to move--you know, I mean, 
what are our options up there? If what they are doing is 
insufficient, is their RPA, you know, permanent, with all this 
flexibility? Or is there a way to challenge that and say, gee, 
I think now Washington State needs to fall under the new 
prescriptions in Oregon?
    Mr. Grimm. Two parts to that. FEMA believes the--from a 
FEMA perspective--that the Washington State RPA is working, and 
we appreciate the flexibility in that implementation so we can 
work with communities.
    If we do change our regulatory requirements, that would 
apply nationwide. And I imagine it is--I am kind of speculating 
here--it could impact the way Washington implements the 
current----
    Mr. DeFazio. So existing RPAs could be impacted because of 
the regulatory changes that are going to be necessary to 
implement the dictates of NMFS for Oregon?
    Mr. Grimm. I believe that is a possibility, sir.
    Mr. DeFazio. Well, I hope my colleagues from the other 49 
United States are listening.
    Thank you, Mr. Chairman.
    Mr. Barletta. The Chair recognizes Dr. Babin for 5 minutes.
    Dr. Babin. Thank you very much, Mr. Chairman. Local 
officials in my district in La Porte, Texas, have expressed to 
me their concerns about FEMA rules regarding properties that 
are bought out via the FEMA program to purchase homes that have 
experienced repetitive losses as a result of flooding. And we 
have seen quite a bit of it over the last few years there.
    FEMA rules prevent the property from being redeveloped in a 
manner that would not eliminate the risk of further property 
loss. So removal of these properties also permanently reduces 
the tax rolls for these municipalities, and also the revenue 
for communities that are not able to expand their boundaries.
    They have also told me that FEMA's enforcement of property 
maintenance guidelines for those properties they have purchased 
has been seriously inadequate, as properties have not been kept 
up to local community standards. Frequently, the properties are 
overrun with weeds and grass and violation of local property 
maintenance codes.
    So, Administrator Grimm, I would ask you. What are your 
thoughts in revisiting this program to give local communities 
an opportunity to reacquire and redevelop these properties so 
that they can be better put to use?
    Mr. Grimm. Sure. Thank you, sir.
    Dr. Babin. Yes, sir.
    Mr. Grimm. Under our grant programs, there is a number of 
mitigation options. Acquisitions is one of those options. It is 
a voluntary program, so that, as a community develops its 
mitigation strategies, it will submit--the community will 
submit projects to the State, who will then submit projects to 
FEMA. And that can happen either post-disaster, under our 
Hazard Mitigation Grant Program, under our flood mitigation 
assistance program that is largely directed at these repetitive 
loss properties, or under our pre-disaster mitigation program.
    Under all three of those grant programs, voluntary programs 
for property owner to participate in the acquisition, the 
grantee, the State, and the community--the sub-grantee, 
generally--sign an agreement to de-restrict those properties in 
perpetuity, as you point out, to prevent future losses.
    Under our current framework and laws and authorities and 
program implementation, that does not permit certain 
development back on to those properties. It has to be 
compatible with open space. FEMA--for example, parks, 
recreation----
    Dr. Babin. Right.
    Mr. Grimm. Preserving natural beneficial functions with 
the--under the Endangered--in line with, for example, this 
discussion on endangered species. Over the years, FEMA has 
spent approximately $2.5 billion on acquisitions in this--
across the Nation to acquire acquisition properties, at-risk 
properties, and keep those in perpetuity.
    Dr. Babin. OK. And then what advice would you give to local 
officials who are dealing with this maintenance and upkeep 
issues?
    And also, if I could, I would like to have your commitment 
that you or one of your officials could reach out directly to 
the officials in La Porte, Texas, and work with them to address 
as many issues as you can under the existing law and FEMA 
policy.
    Mr. Grimm. Yes, sir. We will have somebody reach out 
directly to those officials following this hearing. And in--
could you repeat the----
    Dr. Babin. Yes. The first one was what advice would you 
give these officials when you do reach out to them?
    Mr. Grimm. So I think, as communities and States develop 
their mitigation strategies, that is really the time and place 
to start thinking about whether or not they want to do that 
activity. Because, frankly, sir, sometimes when you do the 
onesies and twosies, it creates a checkerboard pattern, and it 
creates a situation that you are talking about. So, working 
through hazard mitigation planning, and looking at long-term 
strategies, and whether or not we--the community wants to go 
down that mitigation option.
    Dr. Babin. Thank you very much. This has been a ongoing 
problem, not only in my district and districts to the west, but 
also across the Sabine, over in Louisiana, where we are going 
to wind up having lots of neighborhoods and whole sections of 
communities and cities that are going to be ghost towns. They 
want to know how to deal with that.
    So, thank you very much. I appreciate you reaching out to 
my constituents in La Porte.
    Thank you, and I yield back the balance of my time, Mr. 
Chairman----
    Mr. Barletta. Thank you. The Chair recognizes Mr. Costello 
from Pennsylvania for 5 minutes.
    Mr. Costello. Thank you, Mr. Chair. By the way of brief 
background, I used to be a township supervisor in Chester 
County, and we handled all land-use approvals. I then went on 
to be a county commissioner in Chester County. I see we have 
the NACo letterhead here; I was a proud member of NACo. But I 
never--I also was an attorney, a land-use lawyer who regularly 
dealt with regulations in terms of ultimately getting a project 
to the approval stage.
    I share that with you because it is usually the case that a 
developer and a municipal official will find ways to disagree 
with one another during the course of an application. So the 
fact that you have NACo here and you have the homebuilders 
here, both saying that this is highly problematic, I think is 
very, very telling.
    It concerns me that the status quo, as it exists right now, 
is not going to work, moving forward. It is simply 
unmanageable, and it is only going to get worse. And when you 
have RPAs that, for all intents and purposes--and I agree with 
the assertion by FEMA that additional set-aside land outside of 
the flood plain is outside of your jurisdiction, and yet you 
are being told, even though you have jurisdiction, that you 
must do that, I think that is highly problematic.
    And what is going to continue to happen, or what is at 
least plausible, and I would submit as predictable, is what is 
happening is you will have an organization come in, file suit, 
if for no other reason than to simply expand the amount of 
developable--excuse me, to reduce the amount of developable 
land. And by developable land, I mean private property. And to 
Dr. Babin's point, land that comes off the tax rolls.
    I don't understand how FEMA must essentially subordinate 
jurisdiction on this issue. And I just want to share a couple 
other points I found relevant, and then I will just open up to 
whomever would like to respond.
    And most particularly comes from the--from NACo, from the 
mayor. Although participation in NFIP is technically voluntary, 
``local governments have little choice but to comply with the 
participation requirements.'' In this way, participation 
requirements effectively serve as Federal regulations that 
force local governments to adjust their policies in order to 
maintain eligibility for the program.
    That is one thing that you must deal with FEMA. And I don't 
mean this to be disrespectful towards FEMA, but there have been 
many times, as local officials, we voice frustration with FEMA. 
Not in your emergency response, but as it particularly relates 
to the flood plain management program. Now it is only going to 
become more frustrating. And it is not FEMA's fault, it is who 
FEMA has to deal with as a third party.
    So I will invite any of you to pick up where I left off. 
But let me just say for the record this is not going to work, 
moving forward. Like, this will persist and it will 
essentially--and it will become, it already has become, a 
tactic that is going to be used in every single community, in 
every single State across this country, until we sit back and 
say, ``OK, somewhere along the line things went askew. How do 
we fix it?'' I think we need to fix it now.
    I do think that there is a preemption issue here, where 
FEMA essentially needs to reassert its jurisdiction and the ESA 
cannot find its way in the middle of how we go about 
delineating flood plains and implementing the flood insurance 
program. Forty seconds.
    Ms. Carruthers. If I may, thank you, Congressman Costello. 
And I think you framed the issue correctly.
    You know, we see FEMA as a partner in protecting our 
community, particularly as it relates to flood and disaster 
response. However, this is an area that is outside of its realm 
of responsibility, and it is outside of its wheelhouse. And we 
don't believe it adds value to the process, and it essentially 
creates an unfunded mandate for local governments.
    Fifteen percent of our staff and of our operating budget is 
for growth management, and we only issue 197 permits a year. It 
does not make sense. And it is primarily because of regulations 
like this that we are forced to comply with----
    Mr. Costello. Well, I mean, I would say--I would agree with 
you that FEMA--you view FEMA as a partner. I would think that 
FEMA wants to be that partner. I would ask FEMA to share--and 
the other thing that it is going to do is it is going to drive 
up costs on the private landowner side. It is also going to 
drive up the costs of approvals and the ultimate cost of 
whatever ultimately is able to get built. It is also going to 
drive up the cost of insurance for everybody.
    But from the FEMA perspective, what is the solution, if--in 
a perfect world, what is the solution to how to address the 
encroachment on your jurisdiction?
    Mr. Grimm. So I think one of the big concerns that we have 
are the prescriptive nature. So the flexibility that we have 
seen in other areas, or increased flexibility in general, on 
the way this can be implemented at the State and local level--
--
    Mr. Costello. And by ``prescriptive,'' you mean essentially 
ad hoc. Like, I mean----
    Mr. Grimm. The----
    Mr. Costello. Every community--I mean it is going to be a 
different flavor all across the--there is no uniformity, right?
    Mr. Grimm. Correct. You know, we are concerned about that 
uniform implementation. But the performance-based standards 
over prescriptive standards that are reflected in the Oregon 
RPA----
    Mr. Costello. The final point that I would make--I know I 
have gone well over my time, but if I could just make this--I 
think it becomes very difficult to evaluate risk when you don't 
have uniformity, because you, in essence, aren't necessarily 
guaranteeing or providing the same standard or level of 
standard uniformly across the country when you don't have 
uniformity as it relates to implementation of NFIP standards in 
the first instance. I mean, that is just another piece of it.
    Now, that would be for the underwriters, but I just--this 
is very unworkable, and this concerns me greatly.
    Thank you for allowing me to go over. I yield back.
    Mr. Barletta. Thank you. The chair will now begin a second 
round.
    OK, the Chair will now recognize Mr. Graves for 5 minutes.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman. I want to 
thank the--Mr. DeFazio for bringing these issues up.
    I had a few questions. Number one, Mr. Grimm, H.R. 2901 
passed the House unanimously, as I recall, a few months ago, 
and that would effectively allow for private insurers to offer 
flood insurance. If someone--if that were to become law and 
folks were to offer private insurance, would this have an 
effect on property owners, if they use private flood insurance, 
as opposed to going through NFIP?
    Mr. Grimm. As related to the implementation of the RPAs?
    Mr. Graves of Louisiana. Yes, that is correct.
    Mr. Grimm. So it is the participation in the flood 
insurance program and the flood plain management standards that 
would take precedence----
    Mr. Graves of Louisiana. So as long as----
    Mr. Grimm. So----
    Mr. Graves of Louisiana. But if a community chose--if a 
community, if a county, if a parish in Louisiana, if a city 
chose to opt for entirely private insurance, would this apply?
    Mr. Grimm. And withdrew from the flood insurance program?
    Mr. Graves of Louisiana. That is correct.
    Mr. Grimm. Then, no, FEMA would not be involved with 
implementing the RPAs through our FEMA program.
    Mr. Graves of Louisiana. OK. So we would have dire 
consequences for these endangered species. I am being 
facetious. OK, so I just wanted to make that point.
    Number two, let me ask another question. In regard to some 
of the elevation requirements that are in place regarding 
having to build above base flood elevation, in this case--and I 
apologize, having gone through some of the specific details in 
Oregon as much as, obviously, Mr. DeFazio has, but is elevating 
above these flood plains, is that an option under these RPAs in 
some areas?
    Mr. Grimm. That is one of the options we want to explore on 
the alternatives. Right now there are certain prohibitions 
entirely in certain parts of the flood plain. So, from FEMA's 
perspective, that is not an option in some areas of the flood 
plain. In other areas, where they give us--we talked about a 
alternative a little while ago. That is what we would want to 
explore. And that is the type of performance-based standard 
that we implement in the NFIP.
    Mr. Graves of Louisiana. All right, I am going to pivot to 
a couple of other questions.
    If someone's vulnerability under NFIP--meaning their 
actuarial risk increased not as a result of something they did, 
but maybe as a result of something their neighbor did, how 
would that work in regard to the premiums that homeowner would 
be paying?
    So, give you a scenario. If I had a creek in my backyard 
and decided I didn't like it any more, and I decided to fill it 
in, which then made the water run and make my neighbor's home 
more vulnerable, what would happen in that case?
    Mr. Grimm. So, under the flood plain management 
regulations, that would be in a--going along with the scenario 
here, that would be--fill in the flood way that the local 
community would have to go permit, they would go through a no-
rise certificate, we call it, so----
    Mr. Graves of Louisiana. Now, what would happen if that 
scenario resulted from the Federal Government's actions?
    Mr. Grimm. We would have to work with that other Federal 
partner to evaluate any impacts upstream or downstream to 
eliminate any upstream or downstream----
    Mr. Graves of Louisiana. And the State of Louisiana, 
following Biggert-Waters and the subsequent tweaks that 
occurred in 2014, folks have seen flood insurance rates 
increase, in some cases, 1,000 percent in some of the extreme 
cases. And FEMA blames this upon actuarial analyses that have 
been done. Yet when you look at the actual vulnerability, it is 
largely tied back to Federal Government actions, specifically 
the U.S. Army Corps of Engineers. Do you think that is fair?
    Mr. Grimm. I am not familiar with that particular case. The 
insurance----
    Mr. Graves of Louisiana. Do you think it is fair if 
someone's vulnerability or risk of flooding increased because 
of someone else's actions, that they should be paying higher 
premiums?
    Mr. Grimm. The NFIP requirements prohibit a neighbor--in 
your example, for example--to increase flood hazards on a 
downstream or upstream neighbor. So we would look to the 
communities to ensure that is not happening.
    Mr. Graves of Louisiana. OK. But in this case, again, it 
would be the Federal Government that is causing this to happen.
    I want to change gears again. Something else that we have 
been spending a lot of time focused on--I heard Mr. Davis 
citing the U.S. Army Corps of Engineers--right now in the 
Federal Government you have hazard mitigation policies. And, as 
you have stated FEMA runs, I think, three different programs 
that you could--pre-disaster mitigation, hazard mitigation, and 
others, where you could potentially mitigate some risk or 
vulnerabilities.
    The Corps of Engineers has a flood protection program. HUD 
did their design competition. Under this budget request 
Interior now has--well, there is an attempt for Interior to 
create a resiliency program. What efforts are you all taking at 
FEMA to try to coordinate with all of these various resilience 
efforts and programs out there to reduce your liability under 
NFIP?
    Mr. Grimm. So some of the design competition, for example, 
my staff participate on those panels to look at the different 
types of projects.
    Mr. Graves of Louisiana. Do you engage with the Corps of 
Engineers? Do you engage with other agencies, as well?
    Mr. Grimm. Absolutely. We have a very close relationship--
--
    Mr. Graves of Louisiana. So in the case of Louisiana, where 
we just had a 1,000-year flood, 7 trillion gallons of water 
come down, 31 inches of rain in 36 hours, in some areas; there 
was a Corps of Engineers project that has been around since the 
early 1980s, been around about 30 years. The only component of 
the project that has been built is this little bayou control 
structure that literally is a bathtub that connects to nothing. 
It is not designed to be a reservoir. It is just--it is a 
component of a project that doesn't connect to anything yet--30 
years, yet this is on track, as I understand it to be, the 
fourth most costly flood disaster in U.S. history. 
Extraordinary vulnerabilities to the flood insurance program.
    Do you see that as being good use and good stewards of 
taxpayer dollars, to have this fundamental disconnect and a 30-
year project with the Corps of Engineers, yet all of this 
hundreds of millions of dollars are now going to be expended by 
NFIP?
    Mr. Grimm. Yes, I can't speak for the Corps of Engineers on 
funding for the project or where it stands, in terms of----
    Mr. Graves of Louisiana. Last question, Mr. Chairman.
    Under the Hazard Mitigation Grant Program and other 
programs, there are many cases the State of Louisiana has tried 
to come in and use those funds to help protect entire 
communities, not just elevate individual homes, which does have 
a role in some cases. But let's keep in mind, when flood is 
coming, you elevate individual homes, the homes are now 
islands. Their cars are flooded, they can't get to the job, 
grocery stores, or whatever else.
    Do you think it is reasonable to restrict or prevent Hazard 
Mitigation Grant Program funds to be used to build out these 
federally authorized projects that Congress itself at some 
point said was worthwhile and in the public interest? Do you 
think that that duplication of benefits or restriction or 
prohibition on using those funds is--really makes much sense?
    Mr. Grimm. Well, right now we are prohibited from using the 
dollars for----
    Mr. Graves of Louisiana. I am aware of what right now is, 
but I am wondering if you think that is reasonable policy.
    Mr. Grimm. It is----
    Mr. Graves of Louisiana. To leave a project in the 
construction process for 30 or 40 years, leave people 
vulnerable. You got money on the table, design for resilience, 
but then prohibiting them from building a project that 
achieves----
    Mr. Grimm. Yes, it is the current law that we have to 
follow.
    Mr. Graves of Louisiana. But that wasn't my question. Do 
you think it is appropriate? Do you think it is reasonable?
    Mr. Grimm. I think the funds that FEMA has for mitigation 
that we work through State and local governments that then 
prioritize--so, for example, in Louisiana right now we are 
going to work very closely with the State of Louisiana to 
develop mitigation strategies that may involve flood control 
projects at the local or State level, or mitigation strategies 
for individual homeowners. We will certainly coordinate with 
the Corps of Engineers on a Federal project. However, we are 
prohibited from cost sharing on those projects, by law.
    Mr. Graves of Louisiana. So you think it is unreasonable. 
You agree with me. Thank you.
    Mr. Barletta. I now recognize Mr. DeFazio for an additional 
5 minutes.
    Mr. DeFazio. Thank you, Mr. Chairman. Mr. Chairman, first I 
would like to ask unanimous consent to put three letters in the 
record. One is from the Governor of the State of Oregon, 
expressing concerns about the potential implementation and 
concerns with the RPA. One is from myself, listing many 
concerns about this. And the third is from the Oregon 
delegation, or from six Members of the Oregon delegation, also 
expressing concern.
    Mr. Barletta. So ordered.

        [The letters referenced by Congressman DeFazio are on pages 85-
        92.]

    Mr. DeFazio. Thank you, Mr. Chairman.
    So, Ms. Shirley, under Oregon law, measure 49 requires 
local communities to compensate property owners for any portion 
of land taken. What is going to happen with that under this 
proposal, this proposed RPA?
    Ms. Shirley. Yes. We are evaluating that, the measure 49 
issue at my office. And measure 49 has a off-ramp for 
activities that reduce hazards. And so, to the extent to which 
the RPAs reduce hazard, they would likely not be measure 49----
    Mr. DeFazio. Yes, but the whole intent of this RPA is not 
hazards. That is the problem----
    Ms. Shirley. Yes, exactly. That is where I was going next. 
But if the RPA does not directly relate to hazard reduction, 
then there could potentially be measure 49 claims.
    Mr. DeFazio. So, large areas, as the mayor of Beaverton 
mentioned--I was just looking at more maps in Coos Bay, where 
there has been State and local investment for hopeful massive 
redevelopment--and those areas become unbuildable, then the 
State is potentially on the hook for those costs.
    Ms. Shirley. That is exactly why we want to work with FEMA 
to----
    Mr. DeFazio. Right, but FEMA is being forced to do this by 
NMFS, and----
    Ms. Shirley. Well, FEMA and NMFS. But yes, it is our 
intention not to create unbuildable lands.
    Mr. DeFazio. Right.
    Ms. Shirley. To the maximum extent that we are able to do. 
But we do have that----
    Mr. DeFazio. Right. But without flexibility, as we have 
heard many times from the Administrator, that is going to be 
very hard to do.
    Ms. Shirley. It could be difficult.
    Mr. DeFazio. Yes.
    Ms. Shirley. It is going to be a tough road to hoe.
    Mr. DeFazio. Yes. Mr. Chandler, you also mentioned the 
takings issue. Do you want to----
    Mr. Chandler. Mr. Chair, Congressman DeFazio, yes, that is 
a--should be a very great concern for local governments and the 
State, because it is part of Oregon State law. And as one of 
the examples of things that NMFS simply didn't ask about when 
they were doing this because of the lack of consultation with 
State or local governments--you asked an earlier question about 
the options that were available.
    One of the reasons that nothing has happened on the 
moratorium side, for example, is that Oregon statutes are very 
restrictive about when a local government can declare a 
development moratorium. Keeping NMFS happy is not one of the 
provisions.
    So, we simply cannot do that in Oregon. The measure 49 
issue, the land-use issue, all of this adds up to exactly why 
we are very happy this issue is in front of this Congress. This 
needs to be resolved. This is causing--if it does forward the 
way it is written, with the best intentions of FEMA and the 
State notwithstanding, it is going to cause tremendous damage: 
policy damage, financial damage, local governments, private 
sector, across the board. And as Mayor Carruthers has 
indicated, in her district, probably with very little impact on 
the actual species, it is purported to be the basis for the 
regulation in the first place.
    Mr. DeFazio. Right. I just want to go back to that again, 
Mayor. I mean you went through a process that went on for how 
long?
    Ms. Carruthers. Thank you, Congressman DeFazio. Well, let's 
see. Probably since 1990, frankly, when the environmental 
groups sued the Government, sued FEMA and NFIP. We were not 
party to that suit. There was a settlement agreement between 
NFIP and Fish and Wildlife that resulted in these RPAs that we 
now are forced to enforce.
    But in the 15 years that it took for this suit to get--to 
be finalized, and the settlement to be reached, we had already 
been in the process of updating our comprehensive plan to 
protect endangered species. And, frankly, everything that is in 
the RPAs was simply taken from our data and our regulations and 
repackaged and given back to us to enforce in a new way.
    So, it literally resulted in no net value to the process, 
no net improvement in protection of endangered species that we 
already care very much about.
    Mr. DeFazio. And I assume there was some cost associated 
with this.
    Ms. Carruthers. There is cost and, frankly, I haven't added 
it up. But as I mentioned earlier, we have a huge growth 
management department, and we have essentially no growth in our 
country. We have property owners that have not been able to--
that were not able to build.
    And it also, you know, contributes to our issues with 
takings, as Mr. Chandler said, as well. We have huge takings 
issues in our county, and we litigate against those. So it has 
been quite a burden on our residents.
    Mr. DeFazio. And no net gain or----
    Ms. Carruthers. Improvement.
    Mr. DeFazio [continuing]. Substantial change. That is just 
extraordinary.
    Thank you, Mr. Chairman.
    Mr. Barletta. Thank you. And I would like to thank you all 
for your testimony. Your comments have been helpful to today's 
discussion.
    If there are no further questions, I would ask unanimous 
consent that the record of today's hearing remain open until 
such time as our witnesses have provided answers to any 
questions that may be submitted to them in writing, and 
unanimous consent that the record remain open for 15 days for 
any additional comments and information submitted by Members or 
witnesses to be included in the record of today's hearing.
    Without objection, so ordered. I would like to thank our 
witnesses again for their testimony today. If no other Members 
have anything to add, the subcommittee stands adjourned.
    [Whereupon, at 12:01 p.m., the committee was adjourned.]
    
    
    
    
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
                     [all]
                     
                     
                                    
</pre></body></html>
